<html>
<title> - COAST GUARD ARCTIC IMPLEMENTATION CAPABILITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             COAST GUARD ARCTIC IMPLEMENTATION CAPABILITIES

=======================================================================

                                (114-49)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
            
                              ___________           
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-694 PDF                    WASHINGTON : 2017                      
            
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>  
            
            
            COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Admiral Charles D. Michel, Vice Commandant, U.S. Coast Guard.....     4
Allison Stiller, Principal Civilian Deputy to the Assistant 
  Secretary of the Navy for Research, Development and 
  Acquisition, U.S. Navy, Department of Defense..................     4
Jennifer Grover, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................     4
Ronald O'Rourke, Specialist in Naval Affairs, Congressional 
  Research Service...............................................     4
Heather A. Conley, Senior Vice President for Europe, Eurasia, and 
  the Arctic, Center for Strategic and International Studies.....     4
Matthew O. Paxton, President, Shipbuilders Council of America....     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Admiral Charles D. Michel........................................    47
Allison Stiller..................................................    55
Jennifer Grover..................................................    58
Ronald O'Rourke..................................................    77
Heather A. Conley................................................    96
Matthew O. Paxton................................................   103

                       SUBMISSIONS FOR THE RECORD

Admiral Charles D. Michel, Vice Commandant, U.S. Coast Guard:

    Responses to requests for information from the following 
      Representatives:

        Hon. John Garamendi of California 



        Hon. Duncan Hunter of California.........................    36

    Responses to questions for the record from the following 
      Representatives:

        Hon. Don Young of Alaska.................................    52
        Hon Mark Sanford of South Carolina and Hon. Janice Hahn 
          of California..........................................    53
Allison Stiller, Principal Civilian Deputy to the Assistant 
  Secretary of the Navy for Research, Development and 
  Acquisition, U.S. Navy, Department of Defense:

    Responses to requests for information from the following 
      Representatives:

        Hon. John Garamendi of California........................    20
        Hon. Don Young of Alaska.................................    40
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  

 
             COAST GUARD ARCTIC IMPLEMENTATION CAPABILITIES

                              ----------                              


                         TUESDAY, JULY 12, 2016

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. Good 
morning. Thanks for being here, everybody.
    The subcommittee is meeting today to discuss the Coast 
Guard's Arctic capabilities. The Coast Guard talks about its 
assets through descriptions such as ``an asset's capacity or 
capability.'' The term ``capacity,'' as I understand, is a 
quantitative term which refers to how much, to what scale or 
volume a mission can be performed by the asset, and the term 
``capability'' refers to the kinds of missions an asset can 
perform.
    At our June hearing on Coast Guard mission needs and 
resource allocation, the GAO reported that Coast Guard assets 
new and old are not performing to capacity, creating mission 
gaps. In addition, GAO noted that the Coast Guard allocates 
resource hours at levels that are higher than actual asset 
usage hours--in fact, we probably spent about 10 or 15 minutes 
understanding this in the last hearing--also creating mission 
gaps, but potentially, a more artificial mission gap, depending 
on whether you believe the allocated resource hours are based 
on reality.
    The reason I make that statement is for us in Congress to 
understand the needs of the Service we need to understand the 
current abilities of Coast Guard assets. Not the projected 
ability of an asset to meet mission needs, but its actual 
ability to perform a mission and the kind of missions it can 
support.
    The Coast Guard has testified that its heavy icebreaker, 
the Polar Star, has the capacity--excuse me, has the capability 
of accessing any ice-covered region 24/7, 365 days of the year. 
It may have the capability, but by all accounts it does not 
have the capacity due to its age and maintenance needs. In 
fact, I think we figured out that the Polar Star can actually 
be on the ocean about 180 days out of the year, so about half 
the year.
    The High Latitude Region Mission Analysis revealed the 
following Coast Guard missions--defense readiness, ice 
operations, marine environmental protection, and ports, 
waterways and coastal security--in the Arctic were 
significantly impacted by the gap in mission performance. It is 
these gaps and the knowledge that when the Polar Star reaches 
the end of its extended service life we may have a period where 
the Coast Guard does not have a heavy icebreaker at all.
    Progress is being made on the acquisition front, with $1 
billion in the Senate defense bill for the first ship in the 
Polar Icebreaker Recapitalization Project. It has a way to go, 
but it is positive progress. I have supported this acquisition 
and annual funding for it in House appropriations bills, as 
have many of my colleagues.
    I want to reiterate again that the Coast Guard and this 
committee are in lockstep on the need for a heavy icebreaker. 
But as we work towards the acquisition of our Nation's first 
heavy icebreaker since 1978, all of us have the inherent duty 
to have a discussion on what we will do now and continue to do 
until we deploy the appropriate number of icebreakers over the 
next several decades. And we are talking a decade out, at 
least, for the first icebreaker that we build.
    My concerns continue to lie with current mission gaps in 
the Arctic, particularly defense readiness, due to the 
inability of assets to support year-round missions in the 
region. And I believe this is the responsibility that the Coast 
Guard and Navy should share.
    So again, what is the plan, in the short term, to fill this 
gap? We heard at the June hearing that the material assessment 
for the Polar Sea will be sent to this committee conveniently 
after Congress gets out this month, on July 24. Just shy of 3 
years after the deadline mandated in statute for making a 
determination of whether it is cost-effective to reactivate the 
Polar Sea, and 6 years since the vessel last operated, the 
Coast Guard will provide the committee a report on the 
condition of the vessel.
    But don't worry that the Coast Guard is moving too swiftly 
or without deliberate care. We have been assured the material 
assessment will not even contain a recommendation for action, 
simply an assessment on the ship. This is the start of the 
process to see if she can be reactivated. Further information 
will not come until the alternative analysis is sent to 
Congress at the end of the calendar year, so we are looking at 
about 7 years since the Polar Sea last operated, and more 
than--almost 4 years since Congress passed a law that said that 
the Coast Guard is going to give us an analysis on whether the 
Polar Sea can be reactivated or not, and how much it would 
cost.
    Time is ticking away and the vessels in the Coast Guard 
icebreaker fleet are either inoperable, aging and in need of 
extended time in dry dock, or incapable of working on ice-
covered areas. Not a good situation to be in, but here we are.
    I look forward to hearing from the witnesses today and 
discussing this important topic with them.
    And lastly, I would just like to say, too, we talked to 
Secretary Stackley in the Navy and Admiral Michel, and we 
talked about creating a Naval-Coast Guard kind of collaboration 
office, a joint program office. Are we willing to do that 
today?
    Ms. Stiller. Yes, sir. I am going to speak on behalf of Mr. 
Stackley, but yes, we are committed to working together to put 
together a memorandum of understanding on how we would work 
together collaboratively on the icebreaker.
    Mr. Hunter. Fantastic. And with that I yield to Ranking 
Member Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. And this is another 
very, very important hearing on the issues of the Coast Guard 
and the Arctic.
    There is an old adage which states that failing to plan is 
planning to fail. Fortunately, when it comes to the Arctic 
region, by just about any measure the volume of planning 
initiatives undertaken by the Federal Government over the last 
several years has been both comprehensive in scope and 
substantial in number.
    The National Arctic Strategy, the Coast Guard High Latitude 
Regional Mission Analysis, the Army Corps Arctic Deepwater Port 
Study are just a few of the studies that have been undertaken. 
They clearly demonstrate that there is no failure to plan for 
what will be a whole-of-government enterprise for many years to 
come. But at this point what is needed, now more than ever, is 
decisive and thoughtful decisionmaking, not only within the 
administration but also here in Congress. And that is why this 
hearing is so very important today.
    Whether or not you believe that the Earth's climate is 
warming due to increased emissions of manmade greenhouse gases, 
that is not terribly relevant. The physical reality quickly 
unfolding across the High North and Antarctic continents is 
extremely relevant. The shrinking Arctic ice coverage, the 
caving of Antarctic ice sheets, Greenland's glaciers retreating 
at a pace never before recorded are each separately stunning 
developments. Taken together, however, they expose two 
unforgiving remote regions of the world in the midst of a 
rapid, wenching, systematic, environmental change. And if we 
have learned anything, we should expect the actual pace of 
environmental change in each polar region to far exceed the 
rates projected by our climate models.
    So too we must expect human use of the Arctic to accelerate 
much faster than projected. And consequently, the Coast Guard, 
the Navy, and other Federal agencies will have to grapple with 
new demands and challenges far sooner than anticipated. That is 
why we must now switch gears from planning to action. Time is 
critical, and something we can ill afford to waste. We must 
begin to make some very hard but important decisions. We must 
ensure that the United States can decisively project and 
resolutely protect its sovereign interest in the Arctic and 
fulfill its international obligations in the Antarctic.
    For example, if we need a new heavy icebreaker, let's get 
on with cutting the steel and laying the keels for these new 
hulls now. If we need new Arctic deepwater ports, let us 
identify the sites and set the Corps of Engineers to work. If 
we need to ensure emergency communications and safe navigation 
in the Arctic, let us appropriate the funding and direct the 
Coast Guard to get this underway.
    All of these things and much more we need to do. But if we 
hope to shape our future in the Arctic and Antarctic, we must 
take decisive action before events in those rapidly evolving 
frontiers overwhelm our capability to respond effectively. Now 
is the time for us to act, to make decisions, and to set in 
place the laws and money to get the job done.
    Mr. Chairman, I look forward to this hearing.
    Mr. Hunter. I thank the gentleman. Let me introduce our 
witnesses today. They are Admiral Charles Michel, Vice 
Commandant of the U.S. Coast Guard; Ms. Allison Stiller, 
Principal Civilian Deputy to the Assistant Secretary of the 
Navy for Research, Development and Acquisition for the U.S. 
Navy; Ms. Jennifer Grover, Director of Homeland Security and 
Justice for the Government Accountability Office; Mr. Ronald 
O'Rourke, specialist in naval affairs with the Congressional 
Research Service; Ms. Heather A. Conley, senior vice president 
for Europe, Eurasia, and the Arctic for the Center for 
Strategic and International Studies; and Mr. Matthew Paxton, 
president of the Shipbuilders Council of America.
    Admiral, we will start with you. You are recognized.

 TESTIMONY OF ADMIRAL CHARLES D. MICHEL, VICE COMMANDANT, U.S. 
COAST GUARD; ALLISON STILLER, PRINCIPAL CIVILIAN DEPUTY TO THE 
 ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, DEVELOPMENT AND 
ACQUISITION, U.S. NAVY, DEPARTMENT OF DEFENSE; JENNIFER GROVER, 
   DIRECTOR, HOMELAND SECURITY AND JUSTICE, U.S. GOVERNMENT 
  ACCOUNTABILITY OFFICE; RONALD O'ROURKE, SPECIALIST IN NAVAL 
  AFFAIRS, CONGRESSIONAL RESEARCH SERVICE; HEATHER A. CONLEY, 
  SENIOR VICE PRESIDENT FOR EUROPE, EURASIA, AND THE ARCTIC, 
CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES; AND MATTHEW O. 
       PAXTON, PRESIDENT, SHIPBUILDERS COUNCIL OF AMERICA

    Admiral Michel. Well, thank you, Chairman Hunter, Ranking 
Member Garamendi. Thanks for the opportunity to appear before 
you today to discuss Coast Guard capabilities in the Arctic. I 
ask that my written statement be accepted as part of the 
official record.
    Guided by the National Strategy for the Arctic Region and 
our own Arctic strategy, the Coast Guard is responding to 
increasing mission demands in this important region. The Arctic 
presents unique opportunities and challenges to United States 
interests. U.S. security in the Arctic encompasses a broad 
spectrum of activities, ranging from those supporting safe 
commercial and scientific operations to national defense. To 
respond to this challenge, the United States must have the 
ability to safely and reliably operate here year-round.
    Indeed, U.S. sovereignty and security interests in the 
Arctic hinge upon assured access, and heavy icebreakers are the 
only assets capable of dependably fulfilling this critical 
requirement for surface access. Yet the Coast Guard's heavy 
icebreaker inventory, which is our entire national capability, 
consists of a single operational vessel, which is 40 years old, 
the Polar Star. This is why we are answering the President's 
call to accelerate recapitalization of a new heavy icebreaker, 
and are planning for the construction of additional 
icebreakers.
    Mr. Chairman, the Coast Guard shares your sense of urgency 
for this new capability and is grateful to your support of our 
effort to accelerate the heavy icebreaker acquisition. As you 
know, this is the Coast Guard's immediate icebreaking priority, 
based on the age and material condition of our current fleet 
and our limited resources. I also take very seriously your 
concerns regarding the state of our current capability and the 
length of time it will take to deliver a new heavy icebreaker.
    The Coast Guard is committed to continue working with 
Congress, the Navy, and industry to address these concerns, and 
I would like to tell you what we are doing on this front.
    First, we remain committed to maintaining heavy icebreaking 
capability while we proceed with recapitalization. To do this, 
we must make a decision on whether to reactivate Polar Sea or 
extend Polar Star's service life. To support this decision we 
just completed a 7-month material inspection on Polar Sea, 
including pulling her out of the water, and look forward to 
sharing our results with you later this month, formally. In 
accordance with the Coast Guard Authorization Act of 2015 we 
have also commenced the necessary alternatives analysis to 
inform this important decision that will be made by the end of 
this calendar year.
    Based on what we know now, I can tell you that refurbishing 
Polar Sea would be a significant undertaking, and would likely 
far exceed the cost and scope of work that was needed to 
reactivate Polar Star.
    Second, as you know, we are committed to exploring all 
possible alternatives to best accelerate our acquisition of new 
heavy icebreakers. To assure continued momentum and selection 
of the best acquisition strategy, we are leveraging our strong 
and longstanding partnership with the Navy, as you noted 
earlier, sir. To this end, we are working with the Navy to 
develop a program plan to efficiently and effectively move the 
icebreaker program forward, considering mechanisms such as 
block buys, multiyear procurements, and other opportunities to 
acquire icebreakers as quickly and responsibly as possible.
    Similar to our experience working with the Navy to build 
Healy, a cooperative partnership that leverages the Navy's 
expertise in designing and acquiring ships will provide mutual 
benefits to both services, and will energize the U.S. 
shipbuilding industrial base.
    Third, we are assessing additional Arctic needs and 
planning for construction of additional icebreakers. While 
multimission medium icebreakers such as Healy are less capable 
than heavy icebreakers, they can provide important capacity 
during certain seasons and certain ice conditions. We have 
recently chartered an integrated product team, or IPT, to 
define an operating concept and requirements for medium 
icebreakers. That IPT will survey available technologies and 
assets to inform the operational requirements for those 
vessels.
    Fourth, while we proceed with recapitalization of a new 
heavy icebreaker, we are fully committed to exploring ways to 
address evolving U.S. security interests in the Arctic in the 
near term. We have aggressively reached out to industry across 
the globe, seeking out the latest in icebreaking technology. 
While single-mission icebreakers built to commercial standards 
are available on the global market, we have not yet identified 
any available multimission medium or heavy icebreakers suitable 
for military service. However, we are continuing to look. Given 
the urgency, we are open to considering any suitable options 
that could fulfill our unique authorities and multimission 
requirements.
    Fifth, we are working with allies through engagements like 
the Arctic Coast Guard Forum to utilize our limited icebreaker 
capability to achieve better operational effect. This will 
include combined and joint operations with our allies.
    In closing, thank you for support of our effort to 
accelerate the acquisition of a new heavy icebreaker to replace 
the aging Polar Star, as U.S. security interests in the Arctic 
ultimately hinge upon having assured year-round access. We look 
forward to working with Congress, the Navy, and industry to 
identify ways to responsibly accelerate the acquisition of a 
new heavy icebreaker, continue planning the construction of 
additional icebreakers, and explore capabilities that might be 
brought to bear to address our near-term concerns.
    Thank you for your support of the Coast Guard and your 
efforts to ensure our men and women in uniform have the 
capabilities they need to safely and reliably execute our vital 
missions.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Hunter. Thank you, Admiral.
    Ms. Stiller?
    Ms. Stiller. Chairman Hunter, Ranking Member Garamendi, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the Navy's ongoing and continued 
involvement with the Coast Guard on ship design and ship 
construction programs. I request that my written statement be 
entered into the record.
    The Navy fully supports the President's National Strategy 
for the Arctic Region and its corresponding implementation 
plan. The Navy also looks forward to working with Congress and 
the Coast Guard to answer the President's call to accelerate 
the recapitalization of heavy icebreaking ships to meet our 
national interests in the changing Arctic region.
    The ``U.S. Navy Arctic Roadmap 2014 through 2030'' aligns 
with the national and Department of Defense Arctic strategies, 
and includes a plan that directs the development of Arctic 
capabilities and capacity in step with the changing 
environmental conditions. The Navy's four strategic objectives 
in the Arctic include ensuring U.S. Arctic sovereignty, 
providing ready naval forces; preserving freedom of the seas; 
and promoting partnerships.
    The Navy will continue our strong cooperative partnership 
with the Coast Guard in addition to the interagency and 
international Arctic region stakeholders to address emerging 
opportunities and challenges presented by the seasonal opening 
of Arctic ocean waters. The risk of conflict in the region is 
low, and the Arctic Council and other diplomatic venues provide 
effective means to resolve disputes between nations. However, 
the Navy will continue to exploit all opportunities that will 
provide our sailors with superior maritime knowledge of the 
Arctic.
    We will work closely with the Coast Guard to acquire the 
first heavy icebreaker in 2020, as defined by their recently 
approved Operational Requirements Document. Coupled with the 
congressional support, both the Navy and Coast Guard are 
working to develop a program plan to efficiently and 
effectively move the icebreaker program forward.
    As you know, the Navy has a long history of designing and 
acquiring ships, and we have offered our full range of 
experience and expertise to the Coast Guard and the icebreaker 
program. We are aware of the Coast Guard acquisition team's 
progress in executing an analysis of alternatives which, along 
with industry involvement, will inform the icebreaker 
acquisition strategy.
    Together we are working to understand the best way to 
maximize our cooperative partnership and leverage the expertise 
of both of our agencies. The Navy is committed to the success 
of this icebreaker program, and we offer the support of our 
acquisition community during the design, development, 
construction, test, and delivery processes.
    We stand ready to provide shipbuilding expertise in 
acquisition career fields, including program management, 
engineering, cost estimating, test, and manufacturing. We will 
provide access to facilities such as the model basin tow tank 
at Naval Surface Warfare Center to help retire technical risks 
during the design phase of the program. We will provide cost 
estimating support, as design tradeoffs are made.
    We will also provide lessons learned on reuse of systems 
and components in the design phase to mitigate construction and 
support costs. In addition, we will work with the Coast Guard 
and industry to identify high-risk production processes, and 
propose ways to mitigate these risks to alleviate rework during 
the construction.
    The Navy and the Coast Guard both stand to see the mutual 
benefit in this cooperative arrangement by using best practices 
to strengthen the shipbuilding industry base, and reduce costs 
in our Naval and Coast Guard new construction programs. The 
Navy stands alongside the Coast Guard in this endeavor to see 
the icebreaker program become a success.
    Again, thank you for the opportunity to appear before you 
today, and I look forward to your questions.
    Mr. Hunter. Thank you, Ms. Stiller.
    Ms. Grover, good to see you again.
    Ms. Grover. Thank you. Good morning, Chairman Hunter, 
Ranking Member Garamendi. The Coast Guard is responsible for 
carrying out its missions, including search and rescue and 
defense readiness in the Arctic waters, as in other areas. As 
diminishing sea ice may make the Arctic waters more attractive 
for commerce and tourism, the issue of Coast Guard Arctic 
capabilities becomes a more pressing issue.
    My statement today will focus on two points: first, the 
Coast Guard's actions to address known Arctic capability gaps; 
and second, the Coast Guard's polar icebreaking capabilities.
    The Coast Guard is well aware that it faces significant 
capability gaps in the Arctic, as do other organizations with 
operations in that area. For several years the Coast Guard has 
reported challenges, including a lack of reliable 
communications, limited nautical charting, and insufficient 
infrastructure for operating their aircraft and vessels. For 
example, there is limited aircraft infrastructure on the North 
Slope, and no deepwater ports on the North Slope or near the 
Bering Strait for refueling and reprovisioning Coast Guard 
cutters.
    The Coast Guard is working in close collaboration with 
other Federal agencies to address these and other capability 
gaps. For example, the Coast Guard used its 2015 Arctic Shield 
activities to test navigation systems and DOD communications 
equipment. In a report on the Coast Guard's Arctic capabilities 
that was conducted at the request of this subcommittee and 
being released today, GAO recommended that the Coast Guard 
begin systematically assessing the extent to which its actions 
have helped to mitigate Arctic capability gaps. The Coast Guard 
agreed and reported plans to begin doing so.
    Regarding icebreaking, the Coast Guard has initiated the 
process to acquire a new heavy icebreaker. Although the Coast 
Guard is considering all options, several factors make the 
purchase of a new icebreaker a more likely outcome than leasing 
one.
    For some of its missions, the Coast Guard is required to 
use a public vessel, which Federal law defines as one that the 
U.S. owns or demise charters, which is a special type of lease 
where the Coast Guard would have to crew, operate, and maintain 
the leased vessel. Also, Coast Guard vessels, whether purchased 
or leased, must be built in a U.S. shipyard. The Coast Guard 
has determined that no heavy icebreaker currently exists for 
purchase or lease that would meet its requirements, which means 
that one must be constructed, either via a Coast Guard purchase 
or for the purposes of a demise lease.
    In considering these two options it is important to note 
that OMB requires agencies to acquire assets in the least 
costly manner. Prior analyses by the Coast Guard suggest that a 
lease option would likely cost the Federal Government more than 
a purchase over the icebreaker's expected 30-year service life, 
due to the ship owner's profit rate. Previous GAO work has 
echoed those findings that outright purchase can be a less 
costly alternative, compared to long-term vessel lease due to 
profit rate and the expected differences in Government versus 
private-sector borrowing costs.
    As you have noted, while the acquisition process is 
underway, the Coast Guard risks operating for some time with no 
heavy icebreaker capacity. They are exploring their options, 
but have not made any bridging decisions yet.
    In conclusion, the Coast Guard has taken important steps 
toward enhancing its Arctic operations. It is taking action to 
address known Arctic capability gaps, and has initiated the 
acquisition of a new heavy icebreaker. Moving forward, the 
Coast Guard could further enhance its capabilities by better 
understanding the impact of its actions on those Arctic 
capability gaps, and by determining how to bridge the gap 
between the Polar Star and a new icebreaker.
    Chairman Hunter, Ranking Member Garamendi, this concludes 
my statement and I look forward to your questions.
    Mr. Hunter. Thank you, Ms. Grover.
    Mr. O'Rourke?
    Mr. O'Rourke. Chairman Hunter, Ranking Member Garamendi, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss Coast Guard 
Arctic implementation capabilities.
    Mr. Chairman, with your permission I would like to submit 
my written statement for the record and summarize it here 
briefly.
    Mr. Hunter. Without objection. And all the witnesses' 
written statements will be entered into the record in full.
    Mr. O'Rourke. As requested, my testimony focuses on 
acquisition of polar icebreakers, and particularly on savings 
that could be realized in acquiring two polar icebreakers. I 
have seven points I would like to make.
    The first is that, given the potential requirement for up 
to three heavy and three medium polar icebreakers, a single new 
polar icebreaker would narrow but not necessarily close a 
potential gap in polar icebreaking capability. Any remaining 
gap could be further narrowed by a second new polar icebreaker.
    My next point is that there are various possible approaches 
for acquiring two polar icebreakers. One approach, which is a 
potential baseline or default approach, would be to build the 
ships several years apart from one another, contract for them 
separately, and purchase materials and components for them 
separately.
    A potential alternative approach would be to build the 
ships only a few years apart from one another, contract for 
them together under a block buy contract, and carry out a 
combined purchase of materials and components for the two 
ships.
    My third point is that, compared to the potential baseline 
or default approach, the alternative approach would compress 
the funding stream for the two icebreakers into a smaller 
number of years, increasing average annual funding 
requirements, and reduce policymaker flexibility regarding 
whether and when to build the second ship, what design to build 
it to, and what shipyard to build it in. It would also likely 
get the second ship into service sooner, more quickly narrowing 
the potential gap in icebreaking capability, and it could 
reduce the combined acquisition cost of the two ships by at 
least 5 percent, and perhaps closer to 10 percent. This could 
equate to a savings of at least $100 million or so, and perhaps 
closer to $200 million.
    My fourth point is that this savings of $100 million or 
perhaps closer to $200 million would be generated in three 
areas. First, the closer spacing between the ships could result 
in less loss of shipyard learning in shifting from the first 
ship to the second. Next, the use of a block buy contract would 
permit the shipyard to optimize its workforce and capital plant 
for a two-ship production run. And lastly, a combined material 
purchase would improve production economies of scale at 
material and component suppliers.
    My fifth point is that the $1 billion that the Senate 
Appropriations Committee has recommended for a new polar 
icebreaker in the DOD Appropriations Act would more or less 
fully fund the acquisition of that ship. Alternatively, with 
congressional approval, an appropriation of $1 billion could be 
used to partially fund a two-ship acquisition. Under this 
scenario, the $1 billion would be used to develop the design, 
fund a combined purchase of materials and components for the 
two ships, and initiate construction on the first ship. The 
remainder of the funding for the two-ship acquisition would be 
provided in future fiscal years.
    My sixth point is that if a shipyard that is awarded a 
contract to build one or more new polar icebreakers happens to 
be building other Coast Guard or Navy ships, then the addition 
of the icebreaker work could marginally reduce the cost of 
those other Coast Guard or Navy ships by absorbing some of the 
shipyard's fixed overhead costs.
    My seventh and final point is that there are two options 
for temporarily narrowing a gap in polar icebreaking capability 
in the nearer term, prior to the entry into service of one or 
more new polar icebreakers. One would be to further extend the 
service life of Polar Star or Polar Sea; the other would be to 
charter one or more foreign polar-capable icebreakers, if such 
ships were available for charter. The United States has used 
both approaches in the past to mitigate polar icebreaking 
capability gaps. Whether either of these approaches would be 
feasible and cost effective in coming years would need to be 
examined.
    Mr. Chairman, this concludes my remarks. Thank you again 
for the opportunity to testify, and I look forward to the 
subcommittee's questions.
    Mr. Hunter. Thank you, Mr. O'Rourke.
    Ms. Conley?
    Ms. Conley. Chairman Hunter, Ranking Member Garamendi, it 
is a privilege to testify before you today. I would like to 
provide the subcommittee with some broader thoughts on Arctic 
national security challenges and their relationship to U.S. 
readiness and capabilities.
    While the United States has always prioritized its national 
security interests in the Arctic in a variety of strategic 
documents, there is a lack of consensus about what exactly 
constitutes national security in the Arctic. Some define Arctic 
national security in terms of America's missile defense 
architecture in Fort Greely Air Base in Alaska or Thule Air 
Force Base in Greenland, the increased presence of Russian 
special forces and the placement of surface to air missiles on 
remote Russian Arctic islands, as well as the increased 
activity of Russian submarines in the North Atlantic.
    Yet for others, security in the Arctic means search and 
rescue operations, oil spill response, infrastructure 
development, greater maritime domain awareness, U.S. energy 
security. Still others view water, food, and human security of 
indigenous populations, as well as coastal village relocation, 
as security matters.
    There is so much definitional confusion about Arctic 
security because it encompasses all forms, all of these forms 
of security, from missile defense to search and rescue to food 
security.
    The Obama administration has primarily focused on the human 
and environmental dimension of the Arctic security challenge, 
which is certainly considerable. Senior officials have tended 
to discount or deny significant changes to Russia's military 
posture in the Arctic, but other Arctic nations such as 
Denmark, Finland, and Norway have recognized the growing hard 
security threats in the Arctic, and have begun to make 
necessary adjustments to their defense budgets and force 
posture.
    It is clear to me that the projection of power in the 
Arctic today and in the future will be increasingly defined by 
both traditional hard power, as we are seeing in Russia's 
buildup of military presence in the Russian Arctic, as well as 
softer power of superior logistics and infrastructure 
capabilities, science, technology, the combined intuition of 
traditional and 21st-century knowledge, accurate predictive 
meteorological and ice modeling, and enhanced satellite 
communications.
    The projection of power in the Arctic will be multifaceted, 
and will require a new U.S. approach to the region. So, will a 
single heavy icebreaker meet America's comprehensive security 
needs in the Arctic? It will not. But it will certainly enhance 
the U.S. operational capacity, state of readiness, and ability 
to respond and be resilient to the rapid changes in the Arctic.
    But it is also important to note that this heavy icebreaker 
is not solely intended for the Arctic. It will be utilized in 
Antarctica, as the U.S. currently lacks additional and 
redundant heavy icebreaker capabilities, should the recently 
refurbished 1970s-constructed Polar Star become inoperable when 
resupplying our research station in Antarctica.
    Due to limited assets above the Arctic Circle, the Coast 
Guard has at times been forced to rely on third-party 
responders, asked other countries to loan us their spare 
icebreaking capacity, and it is only by chance that the Healy, 
in December of 2012, was in the right place at the right time--
and it wasn't originally supposed to be--to provide icebreaking 
capabilities to provide emergency fuel to Nome, Alaska.
    As the world's leading maritime power, the United States 
has been living on good luck and borrowed time for far too 
long, and I fear the future incident when our luck runs out. 
But let us be clear. One heavy icebreaker is not a silver 
bullet. It is not a substitute for enhanced satellite 
communications, aviation assets, deepwater ports, navigational 
aids, and internationally approved hydrographic mapping. It 
does not solve the funding challenges of the long-range radar 
sites in Alaska, which track aircraft through Alaskan airspace 
and along its borders. It doesn't serve our emergency 
airfields, our halfway points for refueling. It doesn't support 
our Missile Defense Agency operations. It does not enhance our 
military's cold-weather fighting capabilities. It does not 
build a new U.S. Coast Guard operating base or station above 
the Arctic Circle, which would improve search and rescue. It is 
only one piece of the larger Arctic security puzzle.
    It is these extremely limited capabilities that I have just 
highlighted which call into question the ability of the U.S. 
Coast Guard and the U.S. Government to be able to perform basic 
national security tasks in the Arctic, let alone prevent future 
oil spills, assist in mass casualty events, respond to shipping 
accidents, acts of terrorism, ensure strong maritime law 
enforcement actions in the Arctic. And my fear is that our near 
exclusive focus on acquiring one heavy icebreaker will be 
deemed sufficient for our needed focus and budget on a variety 
of U.S. Arctic readiness initiatives. We must focus on the 
comprehensive task now.
    The Obama administration has taken a leadership role in 
identifying readiness and preparedness as a major task for the 
American Arctic, but it has been very slow to develop the 
necessary infrastructure to implement these response 
capabilities.
    The U.S. Coast Guard recognizes the growing concern of 
potential future maritime accidents in the narrow Bering 
Straits and the heightened risk factor posed by increased 
traffic through the Bering Straits, specifically LNG carriers 
from the Russian Yamal LNG project.
    Arctic security will be challenged this August by the 
Crystal Serenity, a 1,700-passenger and cruise ship which will 
traverse the ice-clogged Northwest Passage which has very 
limited infrastructure.
    Simply put, U.S. national security needs and challenges in 
the American Arctic far surpass existing Coast Guard 
implementation capabilities and the value added of acquiring 
one heavy icebreaker. But acquiring a heavy icebreaker is a 
critical step forward because the U.S. must be able to conduct 
freedom of navigation operations in the polar regions.
    The U.S. also needs similar icebreaking operational 
capability redundancies in its medium strength icebreakers to 
ensure effective law enforcement and search and rescue 
capabilities.
    We are in this position today because we have talked about 
this problem for many years, but did not take effective action. 
It is my hope that the acquisition of heavy icebreakers fuels 
greater investment in U.S. Arctic infrastructure and, 
hopefully, our defense capabilities as part of a multiyear and 
prioritized budget to improve U.S. national security in the 
Arctic.
    Thank you.
    Mr. Hunter. Thank you for that comprehensive testimony, Ms. 
Conley.
    Mr. Paxton, you are recognized.
    Mr. Paxton. Thank you, Chairman Hunter, Ranking Member 
Garamendi, and members of the subcommittee, for the opportunity 
to testify this morning.
    The Shipbuilders Council of America is the largest national 
trade association representing the U.S. shipyard industry. The 
SCA represents 83 members----
    Mr. Hunter. Would you pull that mic right by--yes, thank 
you.
    Mr. Paxton. Oh, yes, sir. Sorry about that. The SCA 
represents 83 member shipyard facilities and 94 industry 
partner-member companies that are part of the vital supply 
chain that make up the shipyard industrial base.
    My testimony this morning will focus primarily on the 
capability and capacity of the domestic shipyard industry to 
build and maintain the next generation of polar icebreakers. In 
addition, my testimony will speak specifically to the ability 
of the U.S. shipyard industry to deliver polar icebreakers as 
specified in the Coast Guard's polar icebreaker acquisition 
directorate.
    However, within the shipyard membership of this trade 
association there are differing views on how the Coast Guard 
might best acquire an updated polar icebreaker capability, so I 
will refrain from promoting any specific approaches from these 
specific shipyards.
    The U.S. shipyard industry is certainly up to the task of 
building polar icebreakers, and has the expertise, the 
capability, the critical capacity, and the unmatched skilled 
workforce to build these national assets. In fact, in a letter 
sent to this subcommittee nearly 5 years ago, SCA member 
companies urged the Congress, the Coast Guard, and the 
administration to authorize and fund our Nation's future 
strategic icebreaking needs.
    While it is true the U.S. shipyard industry has not 
designed and constructed a heavy icebreaker in the past 40 
years since delivering the Polar Star in 1976 and the Polar Sea 
in 1978, we have delivered several other icebreakers during 
this period. The medium polar icebreaker Healy was put into 
service in 2000, and is actually larger than the Polar Star and 
the Polar Sea. The Nathaniel B. Palmer, a smaller icebreaker 
specifically built for conducting scientific research for the 
National Science Foundation, was delivered in 1992. For 
icebreaking operations on the Great Lakes, the Mackinaw was 
delivered to the Coast Guard in 2005. In addition, the 
commercial icebreaking supply vessel, the Aiviq, was delivered 
in 2012.
    These icebreakers were built in U.S. shipyards in the 
Pacific Northwest, along the gulf coast, and on the Great 
Lakes. I can tell you today there is strong interest in 
icebreaker construction from at least 10 shipyards located 
around the Nation, from the Northeast to California to the 
Northwest and again along the gulf coast and the Great Lakes 
region. This level of interest across the U.S. shipyard 
industrial base will ensure a robust level of competition for 
this project, which is certainly good for the Coast Guard and 
for the Nation.
    The same is true amongst the supplier base for the 
shipyards. The 94 industry partners of the SCA have the 
capabilities, equipment, and technology available to support 
the building of polar icebreakers. There are multiple design 
solutions available that will create a competitive environment 
for all potential suppliers as they support the shipyards.
    U.S. shipyards pride themselves on implementing state-of-
the-art training and apprenticeship programs to develop skilled 
craftsmen and women that can build truly first-of-a-kind 
commercial vessels and the best Navy and Coast Guard in the 
world.
    For instance, the steel requirements for a heavy icebreaker 
rated at Polar Code 1, the highest icebreaking requirement, is 
a steel thickness in the 50 millimeter range. Presently, U.S. 
shipyards building for the commercial container ship market 
handle, cut, weld, and form steels for ships that are at the 65 
millimeter range, and of a similar grade to the Polar Code 
requirement. In addition, many of our shipyards work in heavy 
steel construction beyond ships, building structures for 
nuclear power plants that are 3 to 4 inches thick.
    These are just a few examples of the critical skills that 
would be needed to build a polar icebreaker where our industry 
has recent and relevant experience.
    As a final recommendation to the committee, to build these 
ships in a timely and affordable manner there must be precise 
and fixed Coast Guard validated requirements. There is language 
in the House 2017 defense authorization bill requiring the 
Coast Guard provide Congress and industry with validated 
operational requirements in the near term, and we believe this 
is a step in the right direction.
    If there are validated and stable requirements in place, 
the time to construct a polar icebreaker, from the start of 
concept design to construction and then to delivery, would be 
roughly 7\1/2\ years.
    Again, I would like to thank the subcommittee for inviting 
me to testify alongside such distinguished witnesses. As a 
representative of our Nation's private shipyards I can say with 
confidence and certainty that our domestic shipyards and 
skilled workers are ready to build the next generation of Coast 
Guard polar icebreakers. Thank you.
    Mr. Hunter. Thank you all. I was actually going to yield to 
Mr. Zeldin, instead of--because it is very rare that we have 
people here at all in this committee.
    [Laughter.]
    Mr. Hunter. But with that, I am going to yield to Mr. 
Graves. I will ask questions afterwards.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman, I 
appreciate that. Thank you all for being here today. This topic 
has certainly been a very hot one lately.
    I am curious. Admiral Michel, could you possibly--and if 
others want to step in on this--could you possibly describe and 
compare and contrast the icebreaking capabilities of the United 
States, compared to other Arctic nations?
    Admiral Michel. Yes, sir. They vary in capability. So, for 
example, at the high end you have the Russian icebreaking 
capability, which is substantial. I mean they have just 
launched a sixth nuclear icebreaker, the most powerful 
icebreakers on earth. They have got the most powerful diesel 
electric icebreaker that will ever be in service under 
construction right now. They have about 40 of those Polar class 
vessels, all the way from light all the way to very heavy.
    Mr. Graves of Louisiana. Are United States capabilities in 
the same league?
    Admiral Michel. Sir, we have--for the United States 
capability we have the Healy, which is a medium icebreaker 
commissioned in 2000, and we have the Polar Star, which is a 
heavy icebreaker, the world's most powerful non-nuclear 
icebreaker. Ship is approximately 40 years old. And then we 
have the Polar Sea, which is not currently operational----
    Mr. Graves of Louisiana. So is that a yes or a no? Do you 
consider us to be in the same league, anywhere in the same 
league?
    Admiral Michel. Well, clearly not, sir, in Russian 
capability. We do match better with some of the smaller Arctic 
nations who do have single or just a few vessels. Even Canada 
has more capability than the United States currently has.
    Mr. Graves of Louisiana. Thank you. Ms. Stiller, do you see 
icebreaking as being primarily a Coast Guard mission?
    Ms. Stiller. Yes, sir. In fact, 14 U.S.C. 2 specifies 
icebreaking as one of the Coast Guard's missions, especially in 
national defense. And there was also a memorandum of agreement 
between the Department of the Navy and the Department of 
Treasury back in the mid-sixties, which has not been amended 
since, but also assigns Coast Guard with icebreaking capability 
during peace time, war time, and contingency operations.
    Mr. Graves of Louisiana. Mr. O'Rourke, do you see our 
capabilities as being sufficient? Do you think that we are on 
the proper trajectory in terms of changes in the Arctic and our 
capabilities?
    Mr. O'Rourke. I can't tell you whether our current 
trajectory is appropriate or not. That would call for making a 
recommendation, and I can't do that as a CRS analyst. What I 
can point out is what other people----
    Mr. Graves of Louisiana. Your secret is safe here.
    [Laughter.]
    Mr. O'Rourke. What I can point out is that the Department 
of Homeland Security has a mission need statement that sets 
forth a need, potentially, for up to three heavy and three 
medium polar icebreakers. That is their statement of their own 
requirement that is on the books and against which Congress can 
measure the executive branch's activities.
    Mr. Graves of Louisiana. And Ms. Grover, do you see the 
current--when looking at the capabilities right now, Polar Sea, 
Polar Star, the status of those vessels, and you look at the 
status of the Healy, all of which are going to have to go 
through, in some cases, full-fledged refurbishment, do you--in 
your testimony I think you described mission gaps in there. Do 
you see any solution that is being proffered at this point to 
address the gaps when we simply don't have Arctic capabilities 
at all?
    Ms. Grover. No, sir. I don't believe there is any set plan 
for addressing the gaps just yet, although the Coast Guard is 
working on it.
    Mr. Graves of Louisiana. Do you view that as being a 
national security threat, not having capabilities?
    Ms. Grover. That is certainly not my decision to make. I 
understand that there are--that the Coast Guard has a set of 
missions for which they are required to be able to carry out in 
the Arctic, as in the rest of the U.S., and those include 
defense readiness, search and rescue, issues related to 
sovereign presence. And it seems like it could be difficult 
under some circumstances for them to carry those out.
    Mr. Graves of Louisiana. Ms. Conley, did you care to 
comment on the disparity and capabilities in the Arctic of the 
United States compared to other countries?
    Ms. Conley. Yes, sir. It is difficult. The Russian Arctic 
is a completely different space than the American Arctic. The 
Russian Arctic is over 50 percent of the total Arctic 
coastline. Over 22 percent of Russian GDP and exports come from 
the Russian Arctic. That is why they have such extensive 
icebreaking capabilities. It is a vital commercial and economic 
space for them, and they have very ambitious plans to develop 
it.
    I think, for the U.S., we have to be mindful--this is about 
U.S. national security. It is not in comparison to keeping up 
with Russian 40 icebreakers. We need to have capabilities to 
serve the American people, to protect the United States, to 
search and rescue, and oil spill response. And today we don't 
have the capabilities that we need to effectively do that. It 
is a strategic vulnerability that has been in existence for 
several years. I am so delighted we are waking up to this.
    But unfortunately, the procurement plans are long, and we 
are going to have this gap with us for several years.
    Mr. Graves of Louisiana. Sure. Last question, Mr. Chairman.
    Mr. Paxton, when you worked in the Senate, the most 
effective and capable staff director you worked with was who? 
And, remember, you are under oath.
    Mr. Paxton. Well, I worked for several very distinguished 
members of that committee.
    Mr. Graves of Louisiana. There is only one right answer to 
that question.
    [Laughter.]
    Mr. Graves of Louisiana. I yield back, Mr. Chairman.
    Mr. Hunter. I thank the gentleman. The ranking member, Mr. 
Garamendi, is recognized.
    Mr. Garamendi. I want to get a couple things off the table. 
We have been going round and round here, just plowing the same 
field over and over again. So let's get a couple of things off 
the table.
    First of all, the lease option. Ms. Grover, you said that 
it is not feasible, it is overly expensive, and not available. 
Please expand on that.
    And then, Admiral Michel, if you will deal with this. Is it 
viable? Is it not viable? Yes? No? Let's dispose of this issue.
    Ms. Grover. So, technically, it is feasible. The Coast 
Guard is required to use public vessels for some of their 
missions. And so, that means either they have to outright own 
the vessel, or they can operate it under a demise----
    Mr. Garamendi. I understand that.
    Ms. Grover [continuing]. Lease, right? OK. So then the 
question is can they do that more cheaply than buying it 
outright. And generally speaking, I would expect that purchase 
would be less expensive, because when you figure in the profit 
for the ship owner, and the higher borrowing class for the 
private sector than the Federal Government.
    Mr. Garamendi. So your answer is leasing is more expensive.
    Ms. Grover. So leasing is generally----
    Mr. Garamendi. Is there a lease--is there a ship available 
in the near term--that is in the next 3 years--available for 
leasing?
    Ms. Grover. The Coast Guard believes there is not. And I 
don't have any reason to believe differently.
    Mr. Garamendi. OK. Admiral Michel?
    Admiral Michel. Well, sir, as far as heavy icebreaking 
capability, there is no vessel available for lease to provide 
heavy icebreaking capability. There are vessels on the global 
market that have the characteristics of a medium icebreaker, 
but the Coast Guard has not yet found one of those vessels that 
is suitable for military service without substantial refitting.
    Mr. Garamendi. So the answer is leasing doesn't make any 
sense. Is that correct?
    Admiral Michel. Not in the current scheme of things, sir.
    Mr. Garamendi. Grover, is that correct?
    Ms. Grover. Generally speaking, purchase is the----
    Mr. Garamendi. Are any of the----
    Ms. Grover [continuing]. Way to go.
    Mr. Garamendi [continuing]. Witnesses disagreeing with that 
assessment, that leasing is not an acceptable option? All 
right. Enough of leasing.
    Now, we have a gap. How can that gap be filled? Admiral?
    Admiral Michel. Well, sir, the current plan is on the heavy 
side, is to either reactive the Polar Sea----
    Mr. Garamendi. OK. July 24 you are going to give us an 
assessment of whether that is viable or not.
    Admiral Michel. We are, sir. And I will flag to you that 
having talked with my folks who took a look at that vessel, 
that is going to be a substantial endeavor, much harder to do 
than the Polar Star for a number of different reasons. And we 
never really fully appreciated that until we had the vessel out 
of the water, as you know, which became available----
    Mr. Garamendi. OK, so----
    Admiral Michel [continuing]. Because of Congress' 
appropriation. Then we are going to have to take a look at 
the--a rolling recapitalization of the Polar Star is 
essentially what the other alternative is until we can bridge 
out. We are also going to figure out Healy, which is going to 
have to be synched up with that, and we have got some ideas on 
how we are going to SLEP Healy and do that in segments, so that 
we can keep that vessel online to the maximum extent possible.
    Mr. Garamendi. So you really have no plan to deal with the 
gap?
    Admiral Michel. Sir, the Coast Guard's requirements set 
forth in the High Latitude Study are for three heavies and 
three medium icebreakers. Currently----
    Mr. Garamendi. So that is your 3x3 strategy.
    Admiral Michel. That is what is required to meet Coast 
Guard missions, or fulfill Coast Guard missions, is three 
heavies and three mediums. Our----
    Mr. Garamendi. OK. So, really----
    Admiral Michel. And I have described to you essentially 
what our plan is, including the need for the construction of 
the new heavy polar icebreaker. That is integral, because we 
are only going to be able to keep the Polar Sea and Polar Star 
under any circumstances online for just enough to reach out to 
that new breaker, sir.
    Mr. Garamendi. So I just heard you say one is not enough. 
We are going to need at least two heavy icebreakers to fulfill 
the mission as----
    Admiral Michel. The Commandant has testified that we need 
at least two----
    Mr. Garamendi. OK.
    Admiral Michel [continuing]. Heavy polar icebreakers for 
self-rescue capabilities. And the President's statement----
    Mr. Garamendi. That then takes us to the block buy, doesn't 
it?
    Admiral Michel. Sir, that is actually one of the things 
that--and we are going to work with the Navy on that, and 
employ some of their expertise, as to whether that makes sense. 
That is going to require congressional action, because we do 
not have authority to do that.
    We are also going to have to take a look at that arrayed 
against the budget requests and the actions of the Congress. 
The President----
    Mr. Garamendi. Yes, I don't want to play ping pong back and 
forth between the Coast Guard and Congress. You are quite 
correct; we are going to have to make a decision. Are we going 
to commit the United States and our budget and appropriations 
to address the real need in the Arctic?
    Now, icebreakers are but one. In 19 seconds I am going to 
raise the other four issues. Communications, we have not talked 
about communications much, but it is not worthwhile to have a 
ship up there that you can't communicate with. Domain 
awareness, we haven't talked about that, but that is another 
issue. Infrastructure, which has been discussed. Army Corps of 
Engineers, where are you with a deepwater plan? Have you even 
thought about it? If so, where and where, and how much? 
Icebreaking, we have gone round that enough times to circle the 
earth several times. And finally, your training program. These 
are the five critical issues that have to be addressed if, in 
fact, we are going to have any activity and any American 
presence in the Arctic.
    Icebreaking, Admiral, we need very specific information 
from you and we need it right away, because we are going to 
have to pass a law here and the appropriations, or at least the 
budget, to go with it.
    Communications, not spent time on that. We need that 
information. What kind of communication equipment? What kind of 
appropriations and monies necessary for the appropriate 
communications? Domain awareness, probably pretty much the same 
issue.
    OK, you know what I need. Admiral, when are you going to 
deliver it?
    [The information from Admiral Michel of the U.S. Coast 
Guard follows:]

        As noted in GAO's report on the implementation of the Coast 
        Guard Arctic Strategy, some of the gaps identified concerning 
        communications, domain awareness, infrastructure, icebreaking, 
        and training are complex, and efforts to address them will 
        extend beyond the timeline of the 10-year Coast Guard Arctic 
        Strategy or Implementation Plan. Additionally, it is important 
        to note the Coast Guard is not solely responsible for 
        mitigating all of the capabilities in which gaps were 
        identified. The Arctic Executive Steering Committee (AESC), led 
        by The Executive Office of the President, was created to 
        enhance interagency coordination in order to meet the nation's 
        strategic objectives in the Arctic. The National Strategy for 
        the Arctic Region (NSAR) and its associated Implementation 
        Framework, recently updated in March of 2016, identify lead 
        components and specific administration priorities.

        ``The Progress Report on the Implementation of the National 
        Strategy for the Arctic Region'' (March 2016) details the 
        status of U.S. efforts in the Arctic, outlining the advancement 
        of the NSAR through programs overseen by specified Federal 
        entities. All relevant NSAR documents can be found at the 
        following webpage: https://www.whitehouse.gov/blog/2016/03/09/
        advancing-implementation-national-strategy-arctic-region. In 
        addition to these documents, I'd like to share some highlights 
        of Coast Guard contributions to the implementation of the NSAR.

        Maintaining communications capabilities in the Arctic is a 
        challenge the Coast Guard continues to address. The seasonal 
        deployment of our assets to the region during Operation Arctic 
        Shield has allowed the Service to test capabilities and tailor 
        operations in the region to adapt to these challenges. We 
        currently use offshore cutter-based command and control 
        platforms, shore-based mobile command and control platforms, 
        and seasonal air and communications capabilities together to 
        address the unique challenges associated with operating in the 
        Arctic.

        As to maritime domain awareness in the Arctic, we have embraced 
        a seasonal and mobile approach. This method counters the 
        unpredictability of human activity by allowing us to 
        concentrate our assets in the area they are most needed at any 
        given time.

        The Coast Guard has also actively engaged other Federal, State, 
        local, tribal, international, and private stakeholders to 
        enhance domain awareness in the Arctic through cooperative 
        effort and info sharing. We recently conducted maritime domain 
        awareness flights along the North Slope and over the Arctic 
        Ocean to monitor maritime activity, assess response asset 
        performance, and observe environmental conditions. We have also 
        updated carriage requirements for the Automatic Identification 
        System (AIS), extending applicability to all U.S. navigable 
        waters, including the Arctic, enhancing our ability to identify 
        and track vessels.

        This seasonal and mobile approach has been effective in 
        removing the need to construct, maintain, and staff permanent 
        infrastructure in arduous and often remote areas. Operation 
        Arctic Shield, featuring various combinations of integrated 
        force packages operating in northern Alaska, takes place 
        between July and September and involves a mixture of Coast 
        Guard cutters equipped with flight decks, sea-going buoy 
        tenders, aircraft, and shore forces. The upcoming Operation 
        Arctic Shield 2016 (AS16) will include prepositioning assets at 
        Kotzebue, Alaska, to increase our cutter and aviation presence 
        in the region.

        With respect to icebreaking, assured access to the Polar 
        Regions is required to preserve our broad and evolving national 
        interests. Providing this capability into the future 
        necessitates recapitalization of our polar icebreaker fleet. 
        Thanks to the support we have received from Congress, we are 
        working to accelerate the acquisition of the first new heavy 
        icebreaker, and we have begun planning for additional assets. 
        The President's Budget for FY 2017 included $150M in support of 
        this program to fund critical activities through the detail 
        design stage. In March 2016, the Coast Guard held an Industry 
        Day with over 90 organizations participating, followed by 48 
        one-on-one meetings with interested vendors. A robust industry 
        engagement strategy, as well as a collaborative partnership 
        with the U.S. Navy, are essential elements of the acquisition 
        strategy.

        Until new assets are delivered, the Coast Guard is committed to 
        providing continued icebreaking capability. As part of settling 
        on the formal bridging strategy, a Materiel Condition 
        Assessment was recently completed on CGC POLAR SEA to 
        thoroughly assess the condition of the vessel. This effort 
        revealed the extent of the technical challenges that would be 
        associated with any reactivation, and provided data to inform a 
        follow-on Alternatives Analysis. The objective of this analysis 
        is to compare a potential POLAR SEA reactivation to a POLAR 
        STAR service life extension to determine the most prudent way 
        ahead. The report will outline the bridging strategy to 
        maintain heavy icebreaking capability while the Coast Guard 
        proceeds with the acquisition. Preliminary steps to prepare for 
        a Midlife Maintenance Availability on HEALY are also underway, 
        including investigating the feasibility of segmented midlife 
        maintenance projects to mitigate impacts to operations.

        Improving our capabilities in the Arctic is a priority, and 
        providing our Coast Guard men and women with the training and 
        experience necessary to perform at their best in any 
        environment is a key component of this. In addition to the 
        yearly Operation Arctic Shield, exercises such as Arctic 
        Chinook allow operators to practice techniques in Arctic 
        environments. Arctic Chinook is a joint USCG and USNORTHCOM 
        sponsored exercise. It is a live field training exercise (FTX) 
        of the Arctic SAR Agreement that will exercise a response 
        construct applicable across the Arctic region. International 
        participation and an international observer program are 
        providing the opportunity for cross-training and cooperation, 
        as well as expanding the network of Arctic operators.

        We have also created the Center for Arctic Study and Policy 
        (CASP) as an academic center for Arctic maritime operations. 
        The CASP builds a nexus between operators, academics, 
        indigenous community members, and policymakers on evolving 
        Arctic issues.

    Admiral Michel. Well, sir, the icebreaker is a critical 
part of that, because that is a mobile----
    Mr. Garamendi. No, no. No more on the icebreaker.
    Admiral Michel. Well----
    Mr. Garamendi. We have gone around that game too many 
times.
    Admiral Michel. Sir--well, I think you are missing the 
point here, sir. That type of a mobile platform can actually 
help you with providing a communications suite that is mobile. 
It can also provide maritime domain awareness with its sensor 
packages. That is the beauty of buying a mobile platform, sir, 
rather than fixed infrastructures. You can move that to 
wherever you need to. And having a capable icebreaker----
    Mr. Garamendi. Point well taken. Thank you.
    Admiral Michel [continuing]. Get that capability anywhere, 
sir.
    Mr. Garamendi. Beyond the mobile, do we need fixed? And if 
so, what?
    Admiral Michel. Right now the Coast Guard strategy is 
mobile and seasonal, because the human activity up there is 
very dynamic.
    Mr. Garamendi. Stiller, Ms. Stiller, is that in the Naval 
strategy, to depend upon the Coast Guard?
    Ms. Stiller. Sir, I am an acquisition professional, but I 
will be happy to take that back and get you an answer from the 
operations side.
    Mr. Garamendi. Please do, thank you.
    Ms. Stiller. Yes, sir.
    [The information from Ms. Stiller of the U.S. Navy 
follows:]

        In alignment with the ``National Maritime Domain Awareness 
        Plan'' (which promotes global maritime security through 
        improved understanding of the full spectrum of activity in the 
        maritime domain), the Navy works with international allies and 
        interagency partners, including the Coast Guard, sharing 
        limited resources, to improve maritime domain awareness of the 
        Arctic Ocean.

        The Navy and Coast Guard leverage each other's capabilities in 
        the Arctic. The Navy utilizes a myriad of National, Department 
        of Defense and Coast Guard platforms--in space, sea, air, and 
        on land--for Arctic communications. Coast Guard platforms, in 
        particular, provide mobile, seasonal communication capabilities 
        in the Arctic. The Navy will continue to deepen its operational 
        relationship with the Coast Guard to support our shared 
        interests in the Arctic, which include increasing commonality 
        and interoperability, improving information sharing, 
        emphasizing the use of common data standards, and fostering 
        international and interagency partnerships.

        The Navy and Coast Guard will continue to cooperate to be 
        better prepared to jointly provide for homeland security and/or 
        homeland defense when operating in the Arctic. The Navy will 
        continually assess our preparedness in response to changes in 
        the Arctic environment or changes in the security environment.

    Mr. Garamendi. And for Mr. O'Rourke and Ms. Grover, thank 
you for your analysis. It is very helpful. I would like to have 
your analysis on the communication and the domain awareness, 
also.
    I am well over my time, Mr. Chairman. Thank you.
    Mr. Hunter. I thank the ranking member.
    I guess, Ms. Conley, one quick question. They said that in 
the 1960s the Treasury and the Coast Guard made an agreement 
that this is a Coast Guard mission. Is this a Coast Guard 
mission?
    Ms. Conley. It is a whole-of-government mission. The Coast 
Guard has a clear leadership role in providing the capabilities 
needed, but I believe that Arctic security encompasses a much 
wider lens that includes assets from the Department of Defense, 
in addition to the Department of Homeland Security. It is a 
full package. We just haven't yet focused on the wider defense-
related issues yet.
    Mr. Hunter. I would ask the whole panel. Why is this not a 
Navy mission? Why is it not a Naval mission? Besides that 
somebody said it is not 60 years ago, besides that answer.
    Admiral Michel. Well, sir, the Navy and the Coast Guard 
came to an agreement that the Coast Guard would be the 
executive agency to provide----
    Mr. Hunter. Besides them coming to--besides that, tell me 
why. What is the reason it is not a Naval mission? Because you 
said----
    Admiral Michel. I----
    Mr. Hunter. Wait, let me finish, Admiral. You said you 
can't lease a ship because they are not--there is no readily 
available militarily capable vessels. So what you are saying is 
there is no other--there is no military icebreakers to military 
specs like a destroyer that are available right now. I think we 
understand that. If we had those available in the U.S., they 
would be yours, and we would be using them.
    There are icebreakers that can be used that aren't to 
military spec, but I would ask you--but besides somebody coming 
to an agreement prior to today, why is it not a Naval mission?
    Admiral Michel. Well, just to be clear, sir, I didn't say 
that it was or wasn't a Naval mission. I said that it was a 
Coast Guard mission, and that we took responsibility that, in 
the 1960s, and as statutorily----
    Mr. Hunter. And look where we are.
    Admiral Michel [continuing]. A Coast Guard mission----
    Mr. Hunter. And look where we are. So my question is, 
should this be a Naval mission?
    Mr. O'Rourke?
    Mr. O'Rourke. It was a Navy mission shared with the Coast 
Guard for a period of about 20 years from the end of World War 
II until the handover in the mid-sixties, when it reverted to 
being a Coast Guard-only mission.
    The history that I have read on that situation is that it 
was consolidated with the Coast Guard in the 1965-1966 period 
because the Navy at that time was facing a large modernization 
requirement to replace the many, many ships built during World 
War II that were, at that point, aging out in very large 
numbers, and that with a concern for their ability to replace 
all those ships and essentially rebuild the fleet, it was that 
concern, according to this history, that drove the transfer 
over.
    As a matter of policy, Congress and the executive branch 
can agree that it can be a Navy mission, as well as a Coast 
Guard mission. But the history that I read suggests that it was 
the Navy's modernization needs which were coincident with the 
Vietnam War that drove the decision in the mid-1960s.
    Mr. Hunter. Got you. So let's talk about with the Navy 
involved in this, given the $1 billion that has been 
appropriated--hasn't been passed yet, but the Senate has 
appropriated it--given the concerns we all have articulated 
regarding the timelines, let me ask you this. Could the $1 
billion be used better if the Navy takes the lead in the 
acquisition, or the Coast Guard?
    Can--given where they are, in terms of their professional 
acquisition systems and people and history of making ships? Put 
it--make it more simple. Who is best suited, the Coast Guard or 
the Navy, to acquire and build and set up the analysis and the 
parameters, the requirements, for an icebreaker?
    Mr. O'Rourke. If that question is to me, what I would say 
is that the Navy's expertise in shipbuilding and the Navy's 
expertise in executing block buy contracts could help the Coast 
Guard in an acquisition of two polar icebreakers that were to 
be done under a block buy arrangement.
    That is not to say that the Navy is better than the Coast 
Guard, but the Navy does have expertise, especially in 
executing block buys that the Coast Guard has not done 
previously, so that if you were to take that expertise and 
leverage it in a whole-of-government fashion, it may allow the 
Coast Guard to do that acquisition better than if the Coast 
Guard were attempting to do it on its own for the first time.
    Mr. Hunter. Admiral, if you had--I don't know how to phrase 
this.
    Mr. Garamendi. Does he agree?
    Mr. Hunter. Would you rather--yes, I mean, that is a good 
question. Do you agree with Mr. O'Rourke's assessment?
    Admiral Michel. I think under any circumstances, sir, we 
are going to tap into the expertise of our Navy colleagues.
    Mr. Hunter. That is the new joint program office that we 
are setting up.
    Admiral Michel. We already committed to that, sir, and that 
benefits both our agencies.
    Mr. Hunter. When it comes to the $1 billion, how--tell me 
how the Coast Guard views getting one vessel and saying that is 
$1 billion for one vessel, or what Mr. O'Rourke testified to 
earlier, that if you take the $1 billion, you could save a 
couple hundred million dollars, possibly, say $200 million, 
build two, buy all the lead-time materials, could get all the 
blueprints and the requirements done, and then come back to 
Congress and say, ``OK, we are ready to roll and build two of 
these,'' and save a few hundred million dollars in the 
meantime?
    Admiral Michel. Sir, I am only authorized the support the 
President's budget request, and that is $150 million, 
approximately----
    Mr. Hunter. But the Homeland Security----
    Admiral Michel [continuing]. For the construction of a 
heavy polar icebreaker----
    Mr. Hunter. The Homeland Security analysis says three 
heavies and three mediums. You are not breaking any rules by 
saying you would like to build two at the same time, are you?
    Admiral Michel. Sir, I am open to any discussions. The only 
thing I can officially support is the construction of a single 
heavy icebreaker. I am happy to work with the Congress and 
other stakeholders on what makes sense. I am not trying to do 
something stupid here. But the only thing that our budget 
request supports is the construction of a single heavy polar 
icebreaker.
    Mr. Hunter. What are we--what did Homeland Security come 
out with their analysis that says that they need three heavies 
and three mediums? What are we referring to there?
    Admiral Michel. Sir, that is our outstanding requirement. 
The High Latitude Study says that, in order to fulfill Coast 
Guard mission, the Coast Guard requires three heavy icebreakers 
and three medium icebreakers. The President's budget request 
begins the recapitalization of that fleet. Our Commandant has 
testified we need at least two heavy icebreakers in order to 
provide self-rescue capability. And I would like to see a 
third, but that is going to have to be supported by future 
budget requests.
    The acquisition of those, I am sort of open to any 
suggestion, and I can sort of support on what makes sense for 
the acquisition of those very expensive assets----
    Mr. Hunter. But if you are only allowed to talk about 
building one, then how can you get into it with the Navy on 
what a block buy and lead-time materials would do for you, 
then? Are you authorized to even discuss that?
    Admiral Michel. Well, sir, we have got an ongoing dialogue. 
I mean you and I are talking about this right----
    Mr. Hunter. Well, I just asked you about it, and you said 
you can only talk about one.
    Admiral Michel. I didn't say, sir, I could only talk about 
one. I said the only one I can officially support is the 
construction of a single heavy icebreaker, because that is what 
the President's budget request is. I am open to discussing any 
type of acquisition strategy that makes sense. I sit in a 
pretty high position in the Coast Guard and in the Government, 
and I talk to people all the time. And people are interested in 
doing good things. So I would like to keep the dialogue open.
    The only thing I can officially support right now is the 
construction of a single heavy icebreaker, because that is the 
President's budget request.
    Ms. Stiller. Sir, I would also point out that the SAC 
[Senate Appropriations Committee] add to the Department of the 
Navy is for a single vessel. So any authorities that, as we 
work together, we deem that we would need otherwise, we would 
be required to come back and request a legislative proposal 
through the system to ask for authorities like block buy. That 
is how we have typically done that in the Navy, as well, to 
bring forth the business case, per se, to present that to the 
committees to consider.
    Mr. Hunter. So tell me explicitly. What action would you 
need Congress to take, either the House or the Senate, to be 
able to do a block buy?
    Ms. Stiller. We typically get block buy authority from our 
authorizers that says that we can enter into block buy 
authority for a particular class of ship, or a number of ships.
    Mr. Hunter. That would be in the--that is in the 
authorizing committee, so that would be the NDAA?
    Ms. Stiller. Typically, sir, that is how we get it. I will 
defer to the Admiral on how the Coast Guard would get their 
authorities. But yes, sir.
    Mr. O'Rourke. It has happened both in authorization bills 
and in appropriation bills. It can be as little as a single 
sentence.
    Mr. Hunter. So this could be done in conference, 
theoretically, on the----
    Mr. O'Rourke. Congress must approve each instance of a 
block buy.
    Mr. Hunter. But I----
    Mr. O'Rourke. And Congress has done so in both 
authorization and appropriation bills.
    Mr. Hunter. On the NDAA conference, could the language be 
changed to allow this $1 billion to go towards a block buy?
    Mr. O'Rourke. Yes, it could be done in the NDAA conference, 
it could be in the conference on the DOD approps bill. And it 
is not complicated. The block buy authority for the Littoral 
Combat Ship was a single sentence in an appropriations bill 
that was actually a continuing resolution that bridged our 
funding for a few weeks.
    Mr. Hunter. Does it----
    Mr. O'Rourke. It is not----
    Mr. Hunter. Does it lock them into it, or does it give them 
the option?
    Mr. O'Rourke. Typically, what the language says is that the 
department in question, or the secretary of that department, 
shall have the authority to contract for some multiple numbers 
of ships. It is a single--it can be as simple as a single 
sentence, and that tends to be what it has been in the 
instances where we have had it.
    Mr. Hunter. OK. Then taking that, Admiral, what does that 
do to your Presidential authorization request for just one? 
What if that gets done--let's say that that sentence is put 
into the NDAA in conference, and it is passed in December, 
and--what then, concerning what the President's request allows 
you to talk about?
    Admiral Michel. Well, sir, the Congress can choose to do 
what the Congress and its will chooses to do. If it chooses to 
buy multiple ships or appropriate different amounts of money, 
the Congress can do that. I am only authorized to support the 
President's budget request, which is $150 million for a single 
icebreaker.
    If Congress chooses to give the Coast Guard or the 
administration additional authority, or chooses to appropriate 
any number of vessels or types of vessels, the Congress is a 
co-extensive branch of Government, and the Congress can do that 
in its will through enacted law.
    Ms. Stiller. Mr. Chairman, if I could just make one comment 
to Ron's statement.
    Mr. Hunter. Yes, ma'am.
    Ms. Stiller. Typically, when we get block buy authority, it 
is tied to the advance procurement line within the SCN 
[Shipbuilding and Conversion, Navy] budget. It is not tied to 
the full funding part of the budget. And right now, the way it 
is in the SAC mark, it is in the full funding line. So there 
would have to be some sort of discussion to address that. That 
is my only point.
    But we do--when we get it, we get the authority to use it 
if it makes sense.
    Mr. Hunter. Thank you.
    Ms. Hahn, you are recognized.
    Ms. Hahn. Thank you, Mr. Chairman. I would like to change 
the subject just slightly. I have learned that this fall 
Crystal Cruises is going to be taking passengers on an 
unprecedented cruise through the Northwest Passage. This ship 
will be accompanied by an escort icebreaker and a dozen 
expedition experts.
    So, Admiral Michel, I was going to just ask you to what 
extent has the cruise line worked with the Coast Guard to 
ensure the success of this voyage. And we do know that the 
Arctic Circle can be known to be a dangerous region, due to the 
unpredictability of the ice and the sea. What contingency plans 
have been established, in the event of an emergency, to make 
sure that these passengers are safe?
    Admiral Michel. Yes, ma'am. Well, we have been working with 
Crystal Cruise Lines here for a couple years on this. And I 
think Crystal understands the challenges associated with this 
venture, which actually, I think, is going to occur next month, 
in August. And we have not only been working with them, but 
also with the Canadian Coast Guard, with the Department of 
Defense, with local officials, and have mapped that out, that 
particular voyage, most of which, actually, is in Canadian 
waters. I think 85 percent of it or more is actually in 
Canadian waters. And the most treacherous parts are actually in 
Canadian waters. But we have bridged out and reached out to 
them.
    We did a table-top exercise the last couple months, and 
worked through all the issues on there on how you would get 
people out of there, how you would take care of the life boats, 
how you would utilize that very small--it is an icebreaker, but 
it has become also an ice management vessel, is the way that 
they are going to use it.
    But Crystal Cruise Lines is--for example, they are taking 
on board ice pilots, they are getting the latest on the ice 
situation that is up there. We think they have done pretty good 
homework. But I don't want to underestimate the challenges of 
that area. There is almost no logistics up there.
    For example, if we needed to get another helicopter up 
there--they are only bringing very small helicopter with them. 
If they needed to get a big helicopter up there, it is 
estimated to take between 15 and 20 hours, if the weather is 
good, in order to get that up there. Fixed-wing aviation may be 
available, but even there you have got very limited landing 
areas, very environmentally sensitive areas. Things change up 
there dramatically. Even during the summer the weather is an 
incredible challenge.
    So, this is not an easy category for a voyage. But I think 
we have done all the legwork that we can upfront here, and we 
do have a responsible operator in Crystal, who is taking a 
number of additional steps in order to ensure that they have 
got a safe passage.
    Ms. Hahn. Thank you. Well, I represent the Port of Los 
Angeles. And between Los Angeles and Long Beach, clearly we are 
the busiest cruise ship terminals. And that is a huge part of 
our economy, and tourism in the area. So, you know, we have 
heard of late of some tragic circumstances aboard cruise ships, 
even in calm and warm waters, so this certainly is of concern.
    Ms. Conley, I was going to ask you, just in your studies, 
and what you are predicting, what does the future hold for 
tourism in the Arctic? Is--I would love to hear your thoughts 
on that.
    Ms. Conley. Thank you. Well, we definitely see an 
increasing interest. In some ways, because the Arctic 
environment is changing so quickly, it is sort of creating a 
rush, if you will, to see this pristine environment while it is 
still in its current state.
    In conversations and in conferences that we have held at 
CSIS, where we have invited the cruise industry, they haven't 
necessarily seen a huge uptick. And in fact, I think the 
Crystal Serenity is a real trail blazer. And you know, as you 
have been noticing, the extensive media attention on that 
cruise itself, in addition to our Coast Guard colleagues that 
will be following it very closely, this may actually spur a 
great deal of interest.
    The price tag is enormous per passenger, because of the 
extra safety requirements that are needed. For instance, the 
Russian tourism industry has been using their Russian 
icebreakers to take cruises up to the poles, literally, for 
quite some time. It is for that adventure ecotourism. So we are 
not seeing the numbers yet. It will be interesting to see if 
the Crystal Serenity does, in fact, show a real uptick in 
interest in cruising the Arctic.
    Ms. Hahn. And Admiral, how much time and effort and 
resources does our Coast Guard expend for this specific cruise 
breakthrough of the Crystal Serenity?
    Admiral Michel. Well, quite a lot, ma'am. This is the 
largest cruise ship that is ever going to go through this area. 
And, by magnitudes, the largest number of people are going to 
go through this area. So we have been working extremely 
closely, like I said, not only with the cruise lines, but 
everybody else who has an oar in the water here, on ensuring 
that we have got a safe voyage.
    So this has taken a lot of our time, and we take this very 
seriously. And I hope we always will, because that is a very 
treacherous area of the earth----
    Ms. Hahn. And do we get compensated for that?
    Admiral Michel. Ma'am, we don't charge people for those 
type of services. Those are Coast Guard responsibilities. The 
taxpayers----
    Ms. Hahn. Because it is interesting----
    Admiral Michel [continuing]. Foot the bill for the Coast 
Guard.
    Ms. Hahn [continuing]. As Ms. Conley pointed out, the 
passengers are paying--sounds like they are paying extra for 
extra security and some of the resources that you are so 
generously giving away.
    Admiral Michel. I don't think we are--well, giving away----
    Ms. Hahn. I mean, that is our----
    Admiral Michel. This is what we do----
    Ms. Hahn. I mean, that is our core----
    Admiral Michel [continuing]. In the Coast Guard.
    Ms. Hahn. Your core mission is, of course, to keep----
    Admiral Michel. Yes, ma'am.
    Ms. Hahn [continuing]. People safe on the high seas. But it 
is kind of an interesting world we are getting into. And as we 
always talk here, your resources are always limited, we are 
always trying to make priority choices. Sort of like contract 
sheriffs, you know, they charge other cities for their 
services. It would be interesting to look at that model some 
day.
    Admiral Michel. Yes, ma'am. And we would like to invest the 
resources upfront to prevent an accident from happening, 
because if you actually have an accident and respond to it, it 
is a lot worse situation. So I would rather make the investment 
upfront with the cruise lines, see if we can buy as much risk 
down as possible.
    Ms. Hahn. Thank you very much. We hope it is successful.
    I yield back.
    Mr. Hunter. I thank the gentlelady. I now yield to the 
former chairman of this committee, whose giant portrait is 
right behind everybody, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and I do appreciate the 
comment. A giant portrait. It is a giant Member, I just want 
you to know that.
    So, Mr. Chairman, I was listening to the questions. And my 
concern to the panel is this is not new. And I don't see much 
progress. That probably concerns me the most. And it is sort of 
like, you know, we are just spinning our wheels. We are worried 
about tourism now, and we are going to take and--break the ice 
for tourism, and that is well and good. But what about the 
security aspect of it?
    This administration, very frankly, is focused on the human 
and environmental dimension of the Arctic, and not on the 
security. And yet I see Russia every day growing with the 
established--I would call it headquarters. There are six new 
battalions in the Arctic, there is about seven new ports. This 
has gone on, and we are just sort of, oh well, it will happen 
some day.
    Is there anybody really thinking about the effect--I know 
Finland and, I believe, the other countries close by have 
become more aware of potential--not only a threat, but taking 
over the resources. Has there been any discussion amongst any 
of you about this problem?
    Ms. Conley?
    Ms. Conley. Yes, sir, thank you. We actually concluded a 
pretty significant study that examined the Russian Arctic, 
looking at their economic interest, the changes to their 
security posture, and we concluded that, in fact, over the last 
several years there have been significant shifts in Russia's 
posture.
    Now, you can explain that in different ways. Because Russia 
has a very ambitious economic vision for the Russian Arctic, 
they believe that the northern sea route will become some day a 
viable major transit route, and there is a lot of people that 
are quite skeptical about that. So they were putting in place 
very ambitious projects. They have very ambitious energy 
projects with the Yamal LNG project.
    But clearly, over the last several years, they are 
developing using their military industrial complex. So when 
they announced previously that they would create 10 search and 
rescue centers across the Russian Arctic, that is a positive 
thing. We need more infrastructure. But then it was announced 
later that those--in fact, those 10 centers will have dual use. 
They will be both operated by the military and civilian forces.
    They have restructured their command. They have told us 
that they will have 50 new airfields in the Russian Arctic by 
2020. They are placing--now these are small units, but they are 
capable units. And so you are scratching your head, going, 
well, this is a lot of change. We are not--no one else is 
repositioning itself; why are they doing this? And I think they 
are preparing to project their sovereignty, and concentrating 
on both projecting that sovereignty in the North Pacific and 
the North Atlantic.
    The question for the United States is we have to evaluate 
this change and see if we must adjust our posture, enhance our 
security measures. As I mentioned in my testimony, other States 
have begun to make that shift. It is not big, it is not bold, 
but they are making those shifts. The U.S. has been studying 
the matter. The Senate Armed Services Committee has been very 
forward-leaning in arguing that and encouraging the Defense 
Department to create an operational plan for the----
    Mr. Young. I am about ready to run out of time. I love your 
answer, but----
    Ms. Conley. Thank you. Sorry----
    Mr. Young. Mr. Chairman, I do apologize for that.
    No, I am glad you answered that. This is for the Admiral.
    Movement of Coast Guard monies to the Arctic, are you 
remembering the rest of the responsibilities you have under 
your wing: interception, fishing patrol, rescue? You are not 
going to diminish from that, are you? Especially district 17.
    Admiral Michel. No, sir. We are committed, as we have 
always been, to our responsibilities in Alaska.
    Mr. Young. OK, all right. I missed Mr. Garamendi's 
comments. I am one that believes that we are not going to get a 
Coast Guard cutter for a long time. I really don't see the 
push. We need it, cutters. And I think Mr. Paxton and his 
shipbuilders are willing to build them.
    Did you make any comments on the leasing concept? Have you 
analyzed this, or it is just coming from the other side?
    Mr. Paxton. Sir, we have no comment on the leasing side of 
things, other than we know there are vessels out there that 
could be leased, sir.
    Mr. Young. Well, because I just--you know, I am concerned, 
Mr. Chairman, the next--we sit here at this committee--maybe, 
God willing, you will be here for 10 years. Hopefully, I will 
be, too, or I may be in the deep sea, I don't know.
    But we need something to be happening. We are not having 
anything really--we have the Arctic Council. Big deal. What 
have we done? We have some meetings. We have some more meetings 
and some more meetings and some more meetings. And I want to 
know. Is there going to be--not just this administration, I am 
not banging this administration--oh, I love to do it.
    But is there any Arctic--real Arctic policy? Is there any--
is anybody setting--do you want us to do it for you? If you do, 
we will screw it up. You guys have got the expertise in it. Is 
there anybody really coming together on what we are going to 
do?
    Anybody can answer that. Then I am out of time, I know. 
Anybody can answer it.
    Ms. Grover, you look anxious to do something.
    Ms. Grover. Well, the Arctic Executive Steering Committee 
was formed in early 2015 in part specifically for the purpose 
of trying to bring together all of the parties into a unified 
effort. But as for how that is going, I can't say. But yes, 
there are a lot of different parties involved in a lot of 
different efforts. And much of it is involved in discussion and 
exploration in the learning phase, essentially. And I think 
there would--we would all benefit from some additional 
leadership and strategic leadership.
    Mr. Young. Well, Mr. Chairman, if I may suggest, either we 
set the policy--because none of the groups are going to get 
together. We will have meetings and meetings and meetings 
again. I like that word, ``meetings.'' And what I am saying, 
either we set up a policy or we set up a chief, period, by a 
legislative action. Because you are not going to get the Navy 
and the Coast Guard and the EPA and--all together. They won't 
agree to anything.
    Maybe we need somebody to be the dominant factor, because I 
do believe the Arctic is going to be the biggest challenge we 
have, as a Nation. We are an Arctic nation, and the next 20 
years is going to be the problem. We are so far behind right 
now. I look at the Russian fleet with its nuclear icebreakers, 
and I look at their establishments of where they put these 
little military base--we are really close to it. I can't see 
Russia from my house, I can tell you that. But we are pretty 
close.
    I used to fly over it, by the way. You don't know that, but 
I had a lot of fun. Cost them a lot of money, too. But their 
radar doesn't work 35 feet off the deck, I want you to know 
that. They may not know that. You can fly right over there. 
Getting back is the problem.
    But you know, we are getting behind. And I understand why 
they are doing it, Mr. Chairman, they have got--it is the 
resource icebox of--refrigerator of the world, and we are just 
sitting here.
    So, Mr. Chairman, I don't have much I wanted to say, but I 
would like to see a position where we are going to say next 
year we have a policy on the Arctic. We need icebreakers. We 
will make that decision. I just don't think there is many 
people understand it. And we need a policy, militarily and 
security-wise. And just not on the Coast Guard's back, it is on 
everybody's back.
    Mr. Chairman, I thank you for the extra time.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Garamendi, you are recognized.
    Mr. Garamendi. I was just thinking about our friend from 
Alaska. And one of his favorite things is fish or cut bait. We 
are coming to that point, I think. And so we are going to have 
to make some decisions here and put it in place.
    Mr. Chairman, you were speaking earlier of the NDAA, and I 
believe that the $1 billion from the Senate is in the NDAA. Is 
that correct? I think that is correct. Senate appropriation 
bill.
    Mr. O'Rourke just described different ways we could come to 
a conclusion here and set the policy in place. It is very clear 
to me that the administration is not in a position to make a 
definitive policy statement. They are kind of biding their time 
with $150 million in the various--and then laying out some 
strategy into the future. And that is really a result of 
Congress not willing to appropriate money.
    So I think in the next 3 months, as we get the information 
on the Polar Sea, and whether it can be refurbished or not, as 
we deal with the appropriation, as well as the NDAA, that we 
are in a place where we can make a decisive decision with 
regard to the future of the icebreakers.
    My own preference here is to use the NDAA and/or the 
appropriation, or both, to lay out a block buy for at least 
two--well, let me just say for two new icebreakers to be built 
in the next 5 to 7 years.
    I notice, Mr. O'Rourke, you laid out a projection of 
expenditures over the next 7 years for one icebreaker. I would 
ask the Admiral Michel to lay out a projection for block buy, 
two icebreakers over the next 7 to 8 years. And also, how that 
timeframe can be compressed to reduce the gap that everybody 
has talked about and that apparently is a very real gap in the 
ability to operate in the Arctic and Antarctic.
    So I think we need to be very precise here. And, Mr. 
Chairman, I would encourage you in your leadership role in this 
to undertake a process that, when the NDAA is completed--the 
conference committee presumably is going to get underway while 
we are in recess--that we take up this issue, we build into 
that NDAA conference committee and the appropriation a specific 
plan.
    My recommendation, once again, is a block buy, two 
icebreakers over the next 7 to 8 years. And in the next month, 
careful analysis by this committee as to whether we can 
refurbish the Polar Sea to address the gap issue, and what it 
might propose--might be available to us, beyond.
    Also, it seems to me that there are the other five issues 
with regard to the Arctic and the Antarctic. The communications 
strategy, Admiral, I appreciate the communication--that is, the 
ship itself being communication. I think, however, that is 
going to be inadequate. Certainly the Navy issue is part of 
this. There are submarines, both ours and others, that will be 
operating in the area. So I think the communication issue needs 
to be fully vetted and brought to our attention so that if it 
is in our--I know both the chairman and I are on the House 
Armed Services Committee, and certainly that will be a piece of 
that puzzle, also. And domain awareness and communications I 
think are probably one and the same.
    Infrastructure, the Army Corps of Engineers. What are 
their--and, Admiral, if you could, brief us on the 
infrastructure issue which has been raised. Does us little good 
to have a heavy icebreaker in the Arctic with no fuel and no 
ability to get fuel, except to return to Seattle.
    And then finally, the training mission, which was part of 
your testimony. We will go into that in more detail, later.
    Those are the five areas. I think we must be prepared, as a 
committee, to make a decision and get on with it and, frankly, 
commit the United States to spending the money to get the job 
done. You know, we have got a 2-year timeframe for our 
contracts for every 2 years, but I think we ought to commit the 
future Congress.
    With that, I yield back.
    Mr. Hunter. I thank the gentleman. Mr. Sanford is 
recognized, as long as he doesn't advocate buying Russian 
icebreakers.
    Mr. Garamendi. By the way, Mr. Chairman, I----
    Mr. Sanford. That is a much longer conversation----
    Mr. Garamendi [continuing]. Am going to take my final 15 
seconds----
    Mr. Sanford [continuing]. The Jones Act, but we will come 
back to that on another day. The--thank you, Mr. Chairman.
    I guess, Admiral, first question would be, following up on 
my colleague from--well, Ms. Hahn's question with regard to 
cruise lines in the Arctic and your sharing of resources and 
capacity without charge, I struggle with that in that there is 
always unlimited demand for a product that somebody else is 
paying for.
    Wouldn't there be a cost-sharing arrangements that could 
both benefit the taxpayer and take care of the safety needs 
that the Coast Guard is responsible for?
    Admiral Michel. Sir, we have a, as a matter of policy, not 
charged for prevention-related services. Otherwise, what ends 
up happening is people do not engage with us to try to save 
money, and then they go out there and do stupid things that we 
have to clean up from.
    So, as a matter of policy, we don't charge for search and 
rescue services for those reasons, sir.
    Mr. Sanford. Understood. But I think the question one would 
have to ask is when you go into the Arctic you are going into 
harm's way. And so to, in essence, offer incentive to go into 
harm's way would be the equivalent down in--off the coast of 
South Carolina is kind of a tropical wave or tropical 
depression to say we will facilitate your ability to go out 
into those waters as a, you know, coastal disturbance is headed 
our way. That seems to me to invite some level of peril that 
would not be the case if they were taking unsubsidized risk.
    Admiral Michel. Sir, I can't disagree with you, that you 
can take that particular viewpoint. The Coast Guard's viewpoint 
is we would rather engage with stakeholders upfront to buy down 
risk and prevent a catastrophe from happening, rather than 
disincentivizing people from engaging with the Coast Guard, and 
then they go out and do something very tragic, particularly 
when you are talking about having 1,700 people on board, sir, 
who probably are just paying for a vacation and don't apprehend 
exactly the situation that they are going to get themselves 
into.
    Mr. Sanford. I hear you. I would like to come back to that 
question.
    In the same regard, just in terms of taxpayer concerns, if 
I remember right the Polar Sea used to leave the Upper 
Midwest--excuse me, the Northwest, and take a--basically, a 
month-long trip down to the Antarctic, open up the channel for 
the once-a-year drop-off at McMurdo Station, and then take 
another month trip back. Might there not be a lower cost 
leasing, borrowing alternative to the--in essence, it is one 
mission--that would then free up capacity for the patrol of the 
Arctic, given some of our shared concerns with regard to 
Russian aggression or claims, et cetera?
    Admiral Michel. Yes, sir. Well, part of the earlier 
discussion was whether, you know, leasing a vessel like that 
would be appropriate. As far as heavy icebreaking capability, 
there is no heavy icebreaking capability available for lease on 
earth that the Coast Guard is aware of, and we have looked 
around, sir.
    Mr. Sanford. Does anybody else open up channels in the 
Antarctic, as we do, going into McMurdo?
    Admiral Michel. There have been three vessels that--well, 
there are a number of vessels over many years. That has been 
done over many, many decades. But I will talk here in the 
recent times.
    So the National Science Foundation actually chartered for a 
vessel called the Krasin, which is a Russian medium--almost 
heavy--icebreaker to break open that channel. They also 
chartered the Oden, which is a Swedish icebreaker, to work in 
that area. And they also chartered a vessel called the Vladimir 
Ignatyuk. Each one of those vessels, to varying degrees, was 
able to do that.
    For example, the Oden was able to actually work in that ice 
area. The problem with the Oden is it has very challenging 
open-water characteristics, so its ability to move down from 
Sweden down to work in that area was challenged because of its 
open-ocean characteristics. Plus, that vessel was actually 
pulled back on very short notice by the Government of Sweden 
when they had an icebreaking opportunity.
    The Vladimir Ignatyuk, for example, could only work in the 
already-cleared-out channel, and would not have been able, on 
its own, to have--actually carve that channel. So there have 
been vessels that have worked down there to varying degrees of 
success, none of which are as capable as either Polar Sea or 
Polar Star.
    Mr. Sanford. Understood. But it could possibly be done 
through those kinds of leasing arrangement, and thereby free up 
2 months of capacity for Polar Sea or its equivalent to be on 
patrol, in essence, in the Arctic.
    Admiral Michel. Well, like I said, sir--and Krasin, for 
example, actually did that. But Krasin is a Russian vessel.
    Mr. Sanford. OK.
    Admiral Michel. And really is no opportunity for the Coast 
Guard----
    Mr. Sanford. One last--I see I am down to 16 seconds, so 
let me interrupt, if I might. Two things, I guess. One, Ms. 
Stiller had a question with regard to Navy versus Coast Guard 
roles, and any degree of further differentiation, as you would 
see it, between those two roles.
    And the last question would be, given the way in which 
different folks have asked the same question, which is if you 
were to pick a single linchpin--and this would be for anybody--
that would make a difference with regard to perceived Russian 
aggression in that part of the world, it would be what?
    Ms. Stiller. Well, sir, I am on the acquisition side of the 
house. But the Chief of Naval Operations was asked back in 
March in front of the Senate Armed Services Committee about the 
Navy's role in the Arctic, and whether we are meeting our 
operational missions. And we are currently, because we are 
doing that with undersea and air assets. So we don't require 
the icebreaking capability that the Coast Guard provides as 
part of their mission for our operations right now, in the near 
term, in the Arctic.
    Admiral Michel. I am not sure I exactly understand the 
question, but the Coast Guard is committed to this mission set. 
We believe that the MOU that was signed in 1965 is still the 
appropriate assignment of duties. The Coast Guard has put forth 
candidly our execution challenges.
    And our single biggest investment and our biggest 
recapitalization priority for this particular mission set is a 
heavy polar icebreaker, sir. That provides you with the access 
and the ability to actually, by presence, project sovereignty. 
If you can't get there because you have been denied by the 
environmentals, you cannot project sovereignty. And that is our 
number-one recapitalization investment for this problem set, 
sir.
    Ms. Conley. Sir, on your last question, just on the 
signaling to the Russian Government, I would argue that the 
United States needs to recognize the shift, publicly, that has 
occurred, that there are changes in their military posture that 
do cause us concern.
    I think we need to arrest the withdrawal of forces, key 
forces that we are anticipating, the withdrawal of Army forces 
in Alaska, think about enhancing our force posture. It is 
signaling that we recognize this, and we are prepared to make 
necessary adjustments to our force posture, if required.
    Mr. Hunter. The gentleman yields back. Mr. Garamendi is 
recognized.
    Mr. Garamendi. Mr. Paxton, you indicated that there are 10 
shipyards that are capable of building a heavy icebreaker. Is 
that correct?
    Mr. Paxton. Yes, sir.
    Mr. Garamendi. And they are prepared to do so.
    Mr. Paxton. Well, they are certainly interested, sir. At 
the Coast Guard's Industry Day there was 10 shipyards that 
showed up. They are all members of my trade association. 
Whether or not they will be building or partnering, they want 
to have a say in this, or at least a comment on it. So yes, 
there is high interest.
    Mr. Garamendi. Very good. I want to make one thing very 
clear with regard to where I would come from on the policy of 
American built or foreign built. No way, no how will this 
icebreaker--one, two, or more--be built in a foreign shipyard. 
It will be made in America, period.
    Mr. Paxton. Yes.
    Mr. Garamendi. Now, if we want to have a brawl, then we can 
fight about it. But it is going to be made in America, at least 
as far as I am concerned.
    With regard to the nature of the icebreaker, Admiral Michel 
and Mr. O'Rourke, you lay out in your testimony, Mr. O'Rourke, 
the various capabilities of the icebreaker.
    Mr.--Admiral Michel, I assume you have--this information 
comes from you, or from the Coast Guard. Does--have you had a 
chance to look at Mr. O'Rourke's testimony, and particularly 
the way in which he lays out the capabilities of the 
icebreaker, of the new icebreaker, the new, heavy icebreaker?
    Admiral Michel. I have read his testimony, sir. I am not 
sure exactly which part you are describing.
    Mr. Garamendi. Well then, let me proceed here. Mr. 
O'Rourke, thank you for laying it out in your testimony.
    Admiral Michel, if you will take a look at that testimony 
and get back to us as quick as possible as to whether--it is 
appendix A of the testimony from Mr. O'Rourke--as to whether 
that is a reasonable or accurate recitation of the Coast 
Guard's requirements.
    Mr. O'Rourke, where did you get that information?
    [The analysis of Admiral Michel of the U.S. Coast Guard 
follows:]

        The section titled ``Desired Capabilities for New Polar 
        Icebreaker'' in Appendix A of Mr. O'Rourke's written testimony 
        represents a partial summary of the requirements delineated in 
        the Operational Requirements Document (ORD), approved by DHS in 
        January 2016. Specifically, this Appendix highlights Key 
        Performance Parameters (KPPs) and other select elements. These 
        items, when combined with the totality of operational 
        requirements outlined in the ORD, describe the threshold 
        capabilities for a new polar icebreaker. A copy of the ORD has 
        been made available to industry for review.

    Mr. O'Rourke. That is from the Coast Guard's own Industry 
Day presentation and the briefing slides that they showed. So I 
am simply transcribing, more or less----
    Mr. Garamendi. OK.
    Mr. O'Rourke [continuing]. What was on each of those 
briefing slides.
    Mr. Garamendi. Good.
    Mr. O'Rourke. And I trust that I didn't do any violence to 
the content in copying it over----
    Mr. Garamendi. No need to go further. I thought that was 
the case.
    This document, or those--the recitation of those particular 
requirements would then be the foundation for a congressional 
authorization. Is that correct, Admiral Michel?
    Admiral Michel. Yes, sir. Those--the capabilities that you 
mentioned there were actually--came from the Operational 
Requirements Document, which has been cleared by all the 
interagency partners setting forth those requirements, and----
    Mr. Garamendi. And----
    Admiral Michel [continuing]. That is the type of vessel 
that we need, sir.
    Mr. Garamendi. Very good. Then what I am looking at is to 
get this thing underway this year in either the appropriation 
or the NDAA. And this recitation here describes what it is we 
would want built. Are you happy with what you gave to the--or 
what Mr. O'Rourke was able to get from you?
    Admiral Michel. I am 100 percent happy, sir. That is 
exactly the type of vessel that we need.
    Mr. Garamendi. All right, then. It is up to us to give you 
the authority and authorization, and not wait for the 
administration, which--I guess the American public will decide 
what that administration will be in the future, although I have 
my own ideas about what would be best.
    I want to also deal with the infrastructure issue. It seems 
to me that that infrastructure issue is important. Ms. Conley, 
you lay out--very good, and I appreciate your testimony, 
because it gives us the larger context in which to consider 
these things.
    On the infrastructure side, let's have a very quick 
recitation of the kind of infrastructure. Are we talking about 
a deepwater port near or north of the strait? Admiral?
    Admiral Michel. Sir, that has been one of the things that 
we have talked about.
    Mr. Garamendi. Well, no, let's not talk about it. Is it 
necessary to have a deepwater port near or north of the Bering 
Strait?
    Admiral Michel. Sir, that is probably outside the Coast 
Guard's lane. There are Coast Guard requirements for that type 
of a port. So we would very much benefit from a deepwater port 
that is closer----
    Mr. Garamendi. So the answer is yes, you would need a 
deepwater port to fully operate in the Arctic with a heavy 
icebreaker.
    Admiral Michel. It would be very beneficial to us, but 
understand, sir, that when you get up into some of those areas, 
that may be only a seasonal port because not all that stuff is 
going to be ice-free, so you have to take that into account----
    Mr. Garamendi. That is a very important issue, as to where 
the port will be located. Is it seasonal or not?
    Ms. Grover, Mr. O'Rourke, Ms. Conley, what is your position 
on an infrastructure?
    Ms. Grover. Only that it is a significant investment to 
develop infrastructure in the area. And so we would yield to 
the Coast Guard's analysis of whether it would be worth it----
    Mr. Garamendi. You don't have a position.
    Mr. O'Rourke?
    Mr. O'Rourke. No position. I would just----
    Mr. Garamendi. Ms. Conley, you----
    Mr. O'Rourke [continuing]. Highlight the fact that the--
    Mr. Garamendi [continuing]. Want to give us the context of 
strategy, national strategy?
    Ms. Conley. We urgently need more infrastructure. In 
addition to a deepwater port we need additional aviation 
assets, greater hangar space. We have to prepare for a much 
more significant response. And it is a comprehensive package. 
It needs to be a full strategy.
    The fact that Shell has withdrawn and the question of 
Alaska's future energy picture has really delayed further 
infrastructure development that would have been a more public-
private partnership. So now we have even taken a further step 
back on infrastructure needs.
    Mr. Garamendi. OK. I guess my final question here really 
goes to our staff, and that is the infrastructure issue may be 
beyond the reach of this subcommittee. But I am of the opinion 
that we are not going to be able to achieve the goals and the 
requirements of this subcommittee unless we have infrastructure 
in place. And that is both the communication, as well as the 
port refueling and other kinds of facilities. And so, we ought 
to spend some time on that.
    Thank you very much. I yield back.
    Mr. Hunter. I thank the gentleman. I am just going to throw 
this out here before I yield to Mr. Graves. I mean we asked for 
this information prior to the hearing, but did not receive it. 
We need the data that you have, going back from 2015 to as far 
back as you have it, for the Polar Star and the Healy, 
including the times the vessels are transiting, the time the 
Polar Star spends in the Arctic and Antarctic, its time in port 
for maintenance work, and same for the Healy, its transit to 
the Arctic, conducting missions for operations and their time 
in port, please.
    Admiral Michel. We will get you that, sir.
    [The information from Admiral Michel of the U.S. Coast 
Guard follows:]

        From fiscal years 2007 to 2012, the USCGC POLAR STAR (WAGB-10) 
        was non-operational (in commission, special) in Seattle. The 
        cutter was reactivated in June 2013 and conducted ice trials in 
        the Arctic during that fiscal year. CGC POLAR STAR then 
        completed Operation DEEP FREEZE 2014, 2015, and 2016 in 
        McMurdo, Antarctica.

 Table 1: Summary of employment days for POLAR STAR, fiscal years 2013-
                                  2015
------------------------------------------------------------------------
            USCGC POLAR STAR                FY13       FY14       FY15
------------------------------------------------------------------------
Transit Days...........................         25         61         47
Days in Arctic.........................         33          0          0
Days in Antarctic......................          0         33         46
Underway Training......................          0          9         10
Inport/Maintenance.....................        300        235        251
Inport Training/Logistics..............          7         27         11
                                        --------------------------------
  Sum..................................        365        365        365
------------------------------------------------------------------------


        From fiscal years 2010 to 2015, USCGC HEALY (WAGB-20) was 
        annually deployed to the Arctic, and conducted missions in 
        support of the Artic Icebreaker Coordination Committee. In 
        addition, in January 2012, HEALY completed a 26-day unscheduled 
        fuel resupply of Nome, Alaska, that is accounted under ``Days 
        in the Arctic'' in fiscal year 2012.

                      Table 2: Summary of employment days for HEALY, fiscal years 2010-2015
----------------------------------------------------------------------------------------------------------------
                  USCGC HEALY                      FY10       FY11       FY12       FY13       FY14       FY15
----------------------------------------------------------------------------------------------------------------
Transit Days..................................         25         27         29         35         56         30
Days in Arctic................................         81         71        125         61         84         57
Days in Antarctic.............................          0          0          0          0          0          0
Underway Training.............................         29         31         11         16         11         21
Inport/Maintenance............................        182        210        158        224        143        158
Inport Training/Logistics.....................         48         26         43         29         71         99
                                               -----------------------------------------------------------------
  Sum.........................................        365        365        365        365        365        365
----------------------------------------------------------------------------------------------------------------


    Mr. Hunter. Thank you.
    Mr. Graves, you are recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
follow up on Mr. Garamendi's last line of questioning.
    Admiral, icebreakers, as Ms. Grover noted in her testimony, 
it is not a silver bullet to addressing all of the needs of 
providing all the capabilities in the Arctic, things like oil 
spills, mass casualties, terrorism events. Can you explain what 
is being done to address other capabilities, meaning non-
icebreaking capabilities in the Arctic, to provide the Coast 
Guard or the Federal Government with the capabilities they need 
to respond to some of these other events?
    Admiral Michel. Yes, sir. Well, our presence has been 
largely mobile and seasonal. So we use the vessels, whether 
they be icebreakers or not icebreakers. I mean buoy tenders--we 
have had our National Security Cutter up there that--we use 
that type of a mobile presence. Plus, we have also established 
forward operating bases. We have done them at Dead Horse, 
Barrow, Kotzebue. These are temporary facilities during--
primarily during the summer, where we provide services like 
search and rescue, aids to navigation work, working with the 
local tribal people for fisheries and forest, or protection of 
mammals, and all those types of things, our presence has 
largely been mobile and seasonal because the human activity has 
been so dynamic.
    I know Ms. Conley mentioned about Shell. We had to move 
certain things when Shell was up there, but now Shell is not up 
there. So investing in permanent infrastructure up there is not 
where the Coast Guard currently is focused, although we look at 
that all the time.
    Right now we like mobile and seasonal because we can move 
where necessary to match the human activity. And that is the 
beauty of having ships that can actually operate up there, 
because they come with a command and control suite, they can 
help with oil spills, they can help with search and rescue, 
counterterrorism, border security, fisheries enforcement, and 
you can move them as the seasons and as the activities and 
requirements dictate.
    Mr. Graves of Louisiana. OK, thank you. Next question, 
Admiral, earlier we talked a lot about heavy icebreaking 
capabilities, and you have gone back and forth into medium 
capabilities, the Healy being the medium icebreaking vessel 
that we have right now. Can you talk a little bit about 
acquisition strategy on mediums?
    And I know the priority is the heavy, and I know your 
allegiance to the President's budget, but could you talk a 
little bit, looking forward on acquisition strategy for 
mediums?
    Admiral Michel. Yes, sir. So you have laid out--the High 
Latitude Study also calls for three medium icebreakers. We have 
got the Healy current extant, but we actually have a 
requirement for a couple others. We have an integrated product 
team stood up, we want to develop an Operational Requirements 
Document, an ORD, for medium icebreakers, just like we have 
done for the heavy icebreakers. And that is a recapitalization 
need for the Coast Guard moving in to the future. So we have 
got a plan for that, as well, sir.
    Mr. Graves of Louisiana. When do you anticipate budget 
requests for that?
    Admiral Michel. Oh, sir, I wouldn't want to speculate on 
that. We don't have the ORD done yet. And the ORD lays out 
those capabilities that Mr. Garamendi identified for the heavy. 
We have to have that agreement amongst the interagency partners 
as to what the interagency requirements are. So I wouldn't want 
to put a timeline on that, sir.
    Mr. Graves of Louisiana. OK.
    Admiral Michel. I will agree to keep you informed as we 
move through the process.
    Mr. Graves of Louisiana. I would appreciate that. In fact, 
I am sure the entire committee would.
    Let me go back to the first line of questioning Mr. 
Garamendi had, and there was something that was left, and I 
want to make sure I understand the ultimate conclusions.
    So Mr. Garamendi asked the panel if leasing was an option. 
As I understand, basically folks said no. However, I heard a 
few things that seemed to contradict that, and I want to make 
sure I understand.
    So Mr. Paxton said that there actually were medium 
icebreaking capabilities that were available. Ms. Grover said 
that the options were unaffordable. So just--I want to make 
sure I understand this.
    So, number one, are there private capabilities that are 
available to the Coast Guard for leasing? Just yes or no.
    Admiral Michel. There are none available, sir, that are 
suitable for military service without substantial refit.
    Mr. Graves of Louisiana. OK. And so then, Ms. Grover--and, 
Mr. O'Rourke, I will come to you in 1 second--Ms. Grover, in 
regard to your statement earlier--and I don't want to put words 
in your mouth, but I think you said that they weren't--I don't 
know what word you used, but affordable to the Federal 
Government. Could you just explain where that information is 
from, if--earlier it appeared that folks were saying there 
weren't even capabilities there.
    Ms. Grover. Sure. It is that leasing, relative to purchase, 
is generally going to cost more because of profit and 
interest----
    Mr. Graves of Louisiana. Sure. But also I just want to make 
clear that we have all acknowledged that there is a gap in 
capabilities here. And so in some cases, if there is a gap, 
then we may have to pay a premium, perhaps. And I am not 
verifying or confirming there would be a premium paid. But if 
we don't have capabilities, then we may have to pay extra in 
order to fill that gap. Would that be fair?
    Ms. Grover. If there were a vessel that was suitable for--
--
    Mr. Graves of Louisiana. Sure, sure.
    Ms. Grover [continuing]. The Coast Guard, they could----
    Mr. Graves of Louisiana. OK.
    Ms. Grover [continuing]. Enter a demise lease.
    Mr. Graves of Louisiana. Great, thank you.
    Mr. O'Rourke?
    Mr. O'Rourke. Yes, I just want to emphasize that we are 
talking about two different forms of leasing here. Ms. Grover's 
testimony was focused on a long-term lease as an alternative to 
purchasing a ship for a 30- or 40-year expected service life. 
There is also a separate question of whether you would want to 
do a short-term lease for temporarily filling a gap prior to 
the time that new U.S. icebreakers come into service.
    In my testimony I used the term ``charter'' to try and 
differentiate this shorter term scenario from the longer term 
one that Ms. Grover talked about. The shorter term ones would 
depend upon the availability of the ships for those shorter 
term charters, and the capabilities that they would bring, the 
prices that you would charge, and whether that would make 
sense, from our point of view.
    Mr. Graves of Louisiana. Sure.
    Mr. O'Rourke. We have done that in the past on at least 
three occasions since 2005, and it might be possible to do it 
in the future, depending on the availability and cost 
effectiveness of that option. But those are short-term 
charters, as opposed to the long-term lease, which is an 
alternative to a purchase.
    So we always have to keep that in mind, and that is why we 
can sometimes get cross-talk on the issue.
    Mr. Graves of Louisiana. Great, thank you. And I think that 
is a really important distinguishing factor here, is that we 
are not talking about leasing to supplant the ultimate 
acquisition of a Coast Guard vessel, but simply to complement 
this strategy where we have gaps that folks have identified in 
their testimony.
    And Mr. Chairman, if I can have a little bit of latitude, I 
promise I will shut up after this. Thank you, Mr. Garamendi.
    Mr. Paxton, let me give you one more chance. You seem to--
last time, for the record. CRS noted in their testimony that 
there may be cost savings as a result of building more than one 
vessel, or piggybacking on an existing Navy or Coast Guard 
contract that is underway because of the ultimate reduction in 
overhead costs and others. Could you comment on that?
    Because, look, let's be clear, $1 billion for one vessel is 
an extraordinary figure, and I just want to understand, looking 
at costs down the road and other acquisition strategies.
    Mr. Paxton. Yes, sir. Thank you, Mr. Graves, for the 
question. Certainly with block buys you can get long lead-time 
materials, you can have an acquisition strategy that allows you 
to put workforce in place to manage multiple construction of 
vessels. So you can really drill down on your processes to get 
better cost savings in the long term. I believe Mr. O'Rourke 
mentioned if you have two ships you might have a savings of 
about $100 million. That is real savings. That is why you would 
want to do it that way.
    I think also, as an industry, our shipyards really strive 
to get their processes down. When you have a lead ship and you 
build just one ship, a lead ship, you don't get your chances to 
get your processes down because it is a lead ship and you are 
only building one. Hence, it is expensive. But if we build 
three heavies and three mediums, you are going to get a cost 
savings there, because the shipyards are going to strive to get 
those processes streamlined, they are going to have long lead-
time materials that they can purchase in block, and they can 
really drive down expenses.
    So, I think there is enormous value to the taxpayer. And 
also we have heard from all the panelists there is a national 
security need to do this. So if we are going to do it, I think 
we should do it in multiple contracts.
    Mr. Graves of Louisiana. Thank you, Mr. Paxton, very, very 
helpful.
    And Mr. Chairman, for the record, as I recall, I think Mr. 
Paxton--on the fifth time he proposed to his wife she said yes. 
So just a----
    [Laughter.]
    Mr. Paxton. Yes, that is great. Thank you, sir.
    Mr. Hunter. I thank the gentleman. Mr. Young is recognized.
    Mr. Young. One of the deficiencies in the Arctic is the 
lack of hydrographic and coastal survey data. I know NOAA 
[National Oceanic and Atmospheric Administration] is doing this 
right now, but under title 10 the Navy has a responsibility. 
How far along are we in that? And are you sharing that with the 
other interested parties?
    Ms. Stiller. Sir, again, I am an acquisition professional, 
but I will get you the right answer. But yes, we do partner 
with NOAA and others. In fact, we have built vessels within the 
SCN account for NOAA to do that research.
    Mr. Young. But have you shared--because I know you have 
done quite a bit of work. Has that been shared now?
    Ms. Stiller. As far as I know, yes, sir. But I will get you 
that----
    Mr. Young. Would you get back to me on that?
    Ms. Stiller. Yes, sir.
    [The information from Ms. Stiller of the U.S. Navy 
follows:]

        Most of the Navy's modern Arctic bathymetric data is collected 
        by submarines. The Navy has already declassified and released 
        as much existing Arctic Ocean bathymetric data as possible. In 
        addition, the Navy has established an ongoing process through 
        which additional Arctic bathymetric data is released as quickly 
        as possible after submarines transiting the Arctic return to 
        port. Bathymetric data released publicly by the U.S. Navy 
        continues to be the main source of data used by the 
        International Bathymetric Chart of the Arctic Ocean (IBCAO).

    Mr. Young. I am going back to--I will get the elephant out 
of the room here, in a sense.
    During the Shell activity there were anchor-layer 
icebreaking-capable ships. Is that correct, Mr. O'Rourke?
    Mr. O'Rourke. There was one that was actually built to 
support Shell's operations, and it was a privately owned ship.
    Mr. Young. That is right. It is a privately owned ship. It 
has tremendous capability of icebreaking power and the bow. If 
that could be retrofitted in 1 year's time or year and a half, 
that would fill that gap. Would you be interested in that, 
Admiral, if that was to take place?
    I know you have the proposal on your desk, by the way. It 
has already been laid on your desk, and it is an automatic no. 
Why?
    Admiral Michel. Sir, our Commandant actually personally 
visited that vessel, and we are of the opinion that that vessel 
is not suitable for military service without substantial refit, 
and I can go into----
    Mr. Young. But that----
    Admiral Michel [continuing]. The reasons why, sir.
    Mr. Young. But wait a minute, stop. You think so. But if 
the shipbuilder said that he--``I can take and meet your 
requirements with the bow that it has now, tungsten steel, 
heavy, and the power to do it,'' see, because I--by the way, 
Admiral, I have been through this now--I have been here when we 
built the Healy, you know. I know what I am talking about. And 
you have always hated the idea of not owning the ship. But we 
have a gap here that has to be put in place.
    How are we going to do it, if you don't accept another 
vessel? American-built, American-manned, American-maintained. 
Why can't you accept that? Because you are not going to get a 
Coast Guard in 10 years. Why can't you accept that? If it can't 
do the job, you don't pay them. Answer?
    Admiral Michel. Sir, our current opinion is that ship is 
not suitable for military service without substantial refit.
    Mr. Young. See, and that is what I call, Mr. Chairman, a 
bullshit answer. Military service.
    Mr. Hunter. I thank the gentleman.
    Mr. Young. I talk about--I am talking about moving ice.
    Mr. Hunter. All right. Let's get into that, if you don't 
mind, Admiral. Let's go on the mil specs. So I am reading this. 
The Coast Guard polar icebreaking mission has four parts: 
breaking out McMurdo Station and providing some show of U.S. 
sovereign presence in the Southern Ocean. Does that require a 
military vessel or an icebreaker? I am just asking logically--
--
    Admiral Michel. Sir, the Coast Guard only operates military 
vessels.
    Mr. Hunter. Does that require a military vessel to do that, 
what I just said?
    Admiral Michel. Sir, the Coast Guard only operates military 
vessels.
    Mr. Hunter. Has--does a non-military vessel ever break out 
the McMurdo station?
    Admiral Michel. Yes, it has.
    Mr. Hunter. OK. So I am going to ask it again. Does it take 
a military vessel to break out the McMurdo Station? That is a 
yes or no answer, Admiral. That is all you got to give me.
    Admiral Michel. No, sir, but not in Coast Guard service.
    Mr. Hunter. OK. To provide an Arctic research platform, 
does that require a military vessel?
    Admiral Michel. No, sir.
    Mr. Hunter. Meeting the Coast Guard maritime safety, search 
and rescue, fishery law enforcement, oil spill response in the 
Arctic, does that require a military vessel?
    Admiral Michel. For the Coast Guard, yes, sir.
    Mr. Hunter. Does that require a military vessel, though?
    Admiral Michel. It----
    Mr. Hunter. And when you----
    Admiral Michel. I think you prefaced that with Coast Guard 
requirements. Yes, sir. We don't operate non-military vessels, 
sir.
    Mr. Hunter. I didn't ask if you would operate non-military 
vessels. I am asking you can a non-military vessel provide for 
search and rescue?
    Admiral Michel. Yes, sir.
    Mr. Hunter. Fishery law enforcement, oil spill response?
    Admiral Michel. Fishery law enforcement? No, sir. That 
requires a law enforcement vessel of the United States, a----
    Mr. Hunter. A law enforcement vessel----
    Admiral Michel [continuing]. Military vessel.
    Mr. Hunter. Then a military vessel.
    Admiral Michel. Yes, sir. Law enforcement----
    Mr. Hunter. But you need----
    Admiral Michel. The Coast Guard vessels are both military 
vessels and law enforcement----
    Mr. Hunter. I mean what do--do you need a CIWS on this, 
or--what--do you need to shoot rockets or missiles off its 
surface? What are we talking about when you say military 
vessel?
    Admiral Michel. Sir, a military vessel of the United States 
is classified as a war ship under international law. It has 
certain privileges and immunities that go along with that. A 
military vessel of the United States is built to military 
specifications for military interoperability, for military 
survivability, for damage control----
    Mr. Hunter. Let me----
    Admiral Michel [continuing]. For water-tight integrity----
    Mr. Hunter. But let me ask Mr.----
    Admiral Michel [continuing]. For propulsion systems. And 
they are not built to commercial standards, sir.
    Mr. Hunter. Is the Littoral Combat Ship totally built to 
military specifications?
    Ms. Stiller. Mr. Chairman?
    Mr. Hunter. Mr. O'Rourke or Ms. Stiller, you could both 
answer that, I guess.
    Ms. Stiller. The LCS is built to Naval Vessel Rules, which 
includes some commercial specifications but they are 
militarized, so yes. And in fact, in the case of LCS, right now 
we have completed our Total Ship Survivability Trials on both 
variants, and we are into the Full Ship Shock Trials to prove 
out that we accurately met the design parameters for those 
ships.
    For the Independence variant, we have already conducted two 
of the tests. We have one more to go, and then, for the Freedom 
variant, we are going to conduct the test in August. But yes, 
sir----
    Mr. Hunter. I understand. I don't want to get too deep in 
the woods on LCS. So--but I just don't understand. One of the 
Coast Guard's excuses for not using a leased vessel or a less 
expensive vessel is that it is not a military-type vessel, yet 
the Navy put a lot of money into a lot of ships--it is changing 
now, but into a bunch of ships--the future of the Navy was the 
LCS--at that time, and that was not a--that--they didn't 
require a military vessel for those ships.
    So you are telling me that the Coast Guard, to break ice--I 
am just using logic here, not semantics--to break ice needs a 
more militarized vessel than the Navy does, in terms of 
survivability? I don't understand.
    Ms. Stiller. Sir, I am going to defer to Admiral Michel 
here, but what he is talking about is we do design and build 
these ships to military standards in certain areas. And you can 
have a blend of military-commercial standards across----
    Mr. Hunter. That is not what he said.
    Ms. Stiller. It depends on the vessel. But I would say that 
it--but it is to the war-fighting capability and the 
protections you have as a war-fighting asset. I think that is 
where you are going on that.
    Admiral Michel. Boy, this is--I mean there is a lot in your 
question there, sir.
    First of all, these are multimission assets that the Coast 
Guard operates. They don't just break ice. They assert national 
sovereignty, they conduct law enforcement.
    Mr. Hunter. And I just asked you--Admiral, hold on. I just 
asked you four things, the four things that an icebreaker has 
to do, and you said it doesn't take a military ship to do any 
of them. I asked you does it take a military ship to do these 
four things. You said no, no, no, and no.
    Admiral Michel. Sir, and that is not the totality of what a 
Coast Guard cutter does. I think we have got a misapprehension 
here, sir, on what the characteristics of these vessels are. 
The Coast Guard operates Coast Guard vessels, we don't just--
this is not a pickup game for the Coast Guard. We have very 
specific requirements for our vessels, including international 
law requirements for assertion of things like navigation 
rights.
    Mr. Hunter. OK.
    Admiral Michel. This is a very--I think maybe you--sir, and 
I am happy to--I know you think I am being nonresponsive, but I 
am not. I am happy to have this dialogue with you on what this 
vessel is. This vessel does not just break ice, just like the 
Polar Sea and Polar Star just do not break ice. Those are the 
assertion of national sovereignty through war ships of the 
United States, military vessels operated by an armed force of 
the United States, the Coast Guard. I think maybe we have 
gotten----
    Mr. Hunter. Got you.
    Admiral Michel. I think that is where our gap is, sir.
    Mr. Hunter. And again, we are never going to see one of 
those while any of us are here. Mr. O'Rourke might be around 
for a long time.
    One last thing here, and then I am going to yield to Mr. 
Garamendi and we will close. And thank you very much for giving 
us a little bit of extra time here.
    I guess the biggest question is--which we have all talked 
about--the gap, 3- to 6-year gap. We all agree we need to build 
a heavy icebreaker. Going to get $1 billion possibly coming up. 
That is going to go towards building a heavy icebreaker, maybe 
accelerating a medium icebreaker being bought. Will you guys 
even look at that, to go in a heavy and a medium, as opposed to 
two heavies?
    Admiral Michel. Sir, I am open for all options.
    Mr. Hunter. OK. So one potential bridging mechanism the 
Coast Guard has touted for years is the reactivation of the 
Polar Sea. In 2012 this subcommittee--that is before I was 
here--this subcommittee had to pass law directing you to 
analyze the reactivation of the Polar Sea and provide Congress 
that analyzed--that analysis by 2013, September, almost 3 years 
ago, with a determination of whether the reactivation was cost 
effective. Not just an analysis on how messed up the boat was, 
but whether it is cost effective to fix it.
    You did the analysis, but failed to make a determination. 
So in a week or two you are going to provide this committee, 
once we are out, another analysis of reactivating the Polar 
Sea--Polar Star. Let me ask you this--Polar Star, right? Sorry, 
Polar Sea.
    Admiral Michel. Polar Sea, sir.
    Mr. Hunter. Polar Sea is broken. Star is working. Are you 
going to give us a determination on the cost effectiveness on 
the 24th? Are you going to come out and say, ``Here is what we 
see wrong with it, here is what it is going to cost to fix it, 
and we determine that that is too much,'' or, ``that sounds 
good''?
    Admiral Michel. You are going to get everything but the 
last part, sir. We are going to give you the cost, we are going 
to give you the materials, the engineering challenges, and so 
on and so forth. The actual alternatives analysis, that is 
arrayed against the broader problem set. That is what is due by 
the end of the calendar year.
    Mr. Hunter. OK. OK. Mr. Garamendi, I yield to you.
    Mr. Garamendi. Mr. Chairman, I want to thank you and your 
staff and my staff for really pushing this issue forward, and 
for the witnesses. Some of you have been here multiple times.
    I think the fundamental issue is before us, before 
Congress, as to what--and to explicitly state what it is that 
the administration is going to do. And I would propose that 
over the next 3 months, as the NDAA and the appropriation 
process go forward, that we take upon ourselves to set the 
policy in place. And for me, the policy that would make the 
most sense is one that would authorize and, in fact, tell the 
Coast Guard to build two, perhaps three, heavy icebreakers, or 
two and perhaps a medium icebreaker in a block buy, and to get 
on with it in an expeditious way, using the information that 
the Coast Guard has developed as to the capabilities of the 
heavy icebreaker. And perhaps also the medium icebreaker. I 
think that is a decision that we have to make.
    We cannot depend upon the administration. It will be a new 
administration, they will take some years or year or more to 
get their act together, and that is just the way it will be. 
Not that either are incapable, it is just that transition that 
will determine that.
    So, with that in mind, there is one additional issue, and, 
Mr. Chairman, you have made this, I think, very clear in the 
most recent colloquy that you had with Admiral Michel about 
what is military. And I notice our colleague from Alaska has 
left, but this issue of military-capable is one that we need to 
come to grips with here, because it is filling the gap issue.
    And I think--not think, I believe that we must decide how 
best to fill this gap. We don't have that information until the 
24th of this month. And therefore, on the 24th we will have 
from the Coast Guard their analysis of the Polar Sea and its 
potential.
    Ms. Grover, Mr. O'Rourke, your very quick and necessary 
analysis of that proposal is essential. And I would ask the 
chairman to request that you get that quickly back to us so 
that when we return here in September we will be able to make a 
decision as to whether to proceed with the Polar Sea or not. 
And we need your capable analysis to do that.
    I am in the mood to make a decision. You know, I know that 
both the chairman and I are up for a new contract. I think that 
both of us, hopefully, will be here to carry on. But before our 
new contract is up, Mr. Chairman, I suggest that we make a 
decision and push this issue--not push it, but set it in place 
so that the next Congress and the next administration will know 
precisely what it is that they are to do.
    And with that, we have got some work out ahead of us. I 
look forward to it. Very, very important hearing, Mr. Chairman, 
I thank you for the time. And for the witnesses, I thank you 
for your engagement on this issue.
    And by the way, we are going to make it in America.
    Mr. Hunter. We are going to make it in America. I would 
ask--I think what Mr. Garamendi is referring to is not the 
analysis of alternatives that comes at the end of the calendar 
year, but what is wrong with the ship which comes in a week or 
two. I think that once you two look at that, I think you can 
beat the Coast Guard by months on what your alternatives 
analysis is. I think you can do that.
    It takes them--I mean it has been since 2012, so it has 
taken them 4 years to give us this much, right? Let's try to--
and maybe you could get us that, and we can start working this 
ahead of receiving whatever we receive in December 30 or 31. I 
take it that is when we will get it. That is the end of the 
calendar year, December 31. OK, I was right, all the way to the 
end.
    Admiral, I also would like you to give us, to this 
committee, look at what Ms. Grover said, that you have to 
have--you are not allowed to have Coast Guard on leased 
vessels. Was that correct?
    Ms. Grover. Not on a short-term lease, because----
    Mr. Hunter. A charter, let's call it charter, like----
    Ms. Grover. Yes, not a short-term lease or a charter, 
because of what the admiral was stating before, that the 
vessels have got to be able to carry out the ports, waterways, 
coastal security mission, the law enforcement mission, and a 
sovereign presence, which means a short-term charter or lease 
it out, because it wouldn't qualify as a public vessel.
    Mr. Hunter. OK. So give me this, Admiral, if you could. 
Could you assist this committee with drafting assistance so--to 
know how we would change that, if we wanted to? OK?
    Admiral Michel. Yes, sir.
    Mr. Hunter. Yes, sure. Go ahead. I yield to the gentleman.
    Mr. Garamendi. Mr. Chairman, we--at least I am of the mood 
to make some decisive decisions here, and to write law. And I 
would request drafting assistance from the Coast Guard, and--to 
achieve that goal.
    Mr. Hunter. And, Admiral, last thing. We still haven't 
talked about the 3-year gap. Right? You haven't told us yet 
today--we have all talked about it, I think, but you haven't 
told us how you are going to fill it. So I will leave the last 
statement to you here to tell us definitely how you are going 
to fill the 3-year gap.
    Admiral Michel. So what is currently on the table is a 
rolling recapitalization of the Polar Star, a reactivation of 
the Polar Sea, and how we are going to fit Healy into that, and 
that is the current situation, although we are out there 
looking for other types of vessels or capabilities that may be 
brought into the fight. That is what we currently have on the 
table, sir.
    Mr. Hunter. So can you plug the 3-year gap--you are telling 
me there will not be a 3-year gap in an icebreaking capability. 
You guys have it under control. Worst case scenario is what you 
just said.
    Admiral Michel. I think, sir, that a rolling 
recapitalization of the Polar Star is achievable. I think that 
it can be done within the operational parameters as I have 
described to you before----
    Mr. Hunter. When would that happen, 2023?
    Admiral Michel. It--5 to 7 years from now is the projected 
end date, so that is 2021 to 2023 under the current 
recapitalization. Under a rolling recapitalization, we can buy 
several more years out of the Polar Star. Whether we want to 
bring Polar Sea on is the analysis that I owe to you, and I 
have got a Healy SLEP I have also got to deal with.
    Mr. Hunter. So say that you--we decide to say, OK, let's go 
with Polar Sea, put in all new engines, and update her, and put 
her in the water. When would that start? So let's say you came 
out and you said, ``We analyzed, we looked at it, it is going 
to be $1 trillion.''
    We said, ``All right, here is $1 trillion. Go.''
    Admiral Michel. Well, I think--I mean we could start on the 
design work relatively soon, but it is going to require an 
appropriation. As I described before--and I am going to give 
you the entire report--that--it took us about $70 million to 
recapitalize Polar Star. This is going to be multiples of that, 
sir.
    Mr. Hunter. But I am talking timewise. Would it be done in 
time to fill the gap----
    Admiral Michel. Absolutely, and that----
    Mr. Hunter [continuing]. By 2023?
    Admiral Michel. And that is part of the alternatives 
analysis is what you are going to have to do is you are going 
to have to time it so that you can recap Polar Sea so when 
Polar Star is coming off the line you have got the ability to 
have Polar Sea built out there. And all that has got to be 
synched up with Healy, yes, sir. That is the difficulty in 
pulling an alternatives analysis.
    I can give you a material condition of a ship relatively 
quickly. But to make the actual decisions and to get the 
appropriations lined up and all the other things, that is a 
complicated dance, and that is why it takes a while to do that, 
sir.
    Mr. Hunter. OK. Would you also provide us with not just 
drafting assistance for the leased vessels, but how we would 
change the language to do a block buy? And I would ask all of 
you that, if you have a specialty, and if you know how to do 
that, because we probably do, too, but it would be easier to 
just have you tell us, because you are smarter.
    Admiral Michel. Yes, sir. And we will work with the Navy on 
that. They have more experience than we do with that, and we 
could definitely work with you on that, sir.
    Mr. Hunter. Because if we could possibly do that this year 
in conference or in something else, so that would be great.
    So, ladies and gentlemen, thank you very much. So thanks 
for being here, thanks for going over 2 hours. And with that, 
the hearing is adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
